<html>
<title> - THE MIDWEST METHAMPHETAMINE CRISIS: DEVELOPING A PLAN FOR FEDERAL, STATE AND LOCAL COOPERATIVE</title>
<body><pre>[Senate Hearing 106-403]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-403
 
                  THE MIDWEST METHAMPHETAMINE CRISIS:
                     DEVELOPING A PLAN FOR FEDERAL,
                      STATE AND LOCAL COOPERATIVE

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

               THE METHAMPHETAMINE CRISIS IN THE MIDWEST

                               __________

                            KANSAS CITY, MO

                               __________

                             MARCH 30, 1999

                               __________

                          Serial No. J-106-12

                               __________

         Printed for the use of the Committee on the Judiciary




                   U.S. GOVERNMENT PRINTING OFFICE
62-681                     WASHINGTON : 2000





                       COMMITTEE ON THE JUDICIARY
                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman

MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont

                     Garry Malphrus, Chief Counsel

                    Glen Shor, Legislative Assistant


                                  (ii)




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Ashcroft, Hon. John, U.S. Senator from the State of Missouri.....     1
Thurmond, Hon. Strom, U.S. Senator from the State of South 
  Carolina.......................................................     1

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Hon. Mel Carnahan, Governor, State of 
  Missouri; Gary Starke, sheriff, Pettis County, MO; David 
  Barton, executive director, Midwest HIDTA; John T. Pierpont, 
  sheriff, Greene County, MO; Kirk D. Thompson, assistant 
  director, Kansas Bureau of Investigation; Terri Williams, 
  director of OPS NCMO Drug Taskforce; and Todd Graves, 
  prosecuting attorney, Platte County, MO........................     5
Panel consisting of Barry Mayer, commander, Kansas City Metro 
  Methamphetamine Taskforce; Joseph Corcoran, Drug Enforcement 
  Agency; Gary Howell, director, KCPD Crime Lab; Teresa Loar, 
  councilwoman, first district, Kansas City, MO; John 
  Stufflebean, director, Office of Environmental Management; and 
  Charles Heiss, sheriff, Johnson County, MO.....................    31

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Barton, David:
    Testimony....................................................     9
    Prepared statement...........................................    10
Carnahan, Hon. Mel: Testimony....................................     5
Corcoran, Joseph:
    Testimony....................................................    33
    Prepared statement...........................................    35
Graves, Todd:
    Testimony....................................................    23
    Prepared statement...........................................    25
Heiss, Charles:
    Testimony....................................................    46
    Missouri State Highway Patrol Methamphetamine Presentation...    49
Howell, Gary: Testimony..........................................    40
Loar, Teresa: Testimony..........................................    42
Mayer, Barry: Testimony..........................................    31
Pierpont, John T.:
    Testimony....................................................    13
    Prepared statement...........................................    14
Starke, Gary: Testimony..........................................     7
Stufflebean, John: Testimony.....................................    44
Thompson, Kirk D.:
    Testimony....................................................    15
    Prepared statement...........................................    16
Williams, Terri: Testimony.......................................    21


  THE MIDWEST METHAMPHETAMINE CRISIS: DEVELOPING A PLAN FOR FEDERAL, 
                      STATE, AND LOCAL COOPERATION

                              ----------                              


                        TUESDAY, MARCH 30, 1999

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                   Kansas City, MO.
    The subcommittee met, pursuant to notice, at 9:55 a.m., at 
1125 Locust, Sixth Floor, Kansas City, MO, Hon. John Ashcroft, 
presiding.

 OPENING STATEMENT OF HON. JOHN ASHCROFT, A U.S. SENATOR FROM 
                     THE STATE OF MISSOURI

    Senator Ashcroft. Good morning, and I want to thank you for 
being here this morning and participate in this field hearing 
on the methamphetamine crisis in the midwest. I'm delighted 
that Senator Strom Thurmond, Chairman of this Criminal Justice 
Oversight Committee, has requested that we be involved in these 
kinds of activities. This is the inaugural field hearing for 
the Criminal Justice Oversight Subcommittee of the Judiciary 
Committee of the U.S. Senate. I want to thank Senator Thurmond 
for agreeing to hold this Criminal Justice Oversight field 
hearing here in Kansas City, and I'm sorry that he could not be 
with us today, but Senator Thurmond's chief counsel, Gary 
Malphrus, is with us today, and I want to thank him for his 
help in coordinating this particular hearing, and Senator 
Thurmond has asked that I submit for the record his statement 
regarding this hearing and this challenge of methamphetamines, 
and I'll be pleased to include this in the record.
    [The prepared statement of Senator Thurmond follows:]

  Prepared Statement of Hon. Strom Thurmond, a U.S. Senator From the 
                        State of South Carolina

    I am pleased to hold this Subcommittee on Criminal Justice 
Oversight field hearing regarding the dangers of methamphetamine and 
the need to take steps to address the problem. Let me also commend 
Senator Ashcroft for his strong commitment to fighting the 
methamphetamine problem.
    Methamphetamine--known in short as ``meth''--is one of the most 
destructive and dangerous narcotic substances ever to plague the United 
States. Meth destroys the lives of the users and their families, 
contaminates the environment, drains the resources of the public health 
system, and contributes to unemployment. It is such a toxic substance 
that it even poses an enormous threat to law enforcement officers.
    The effects of this drug on humans who consume it is profound. The 
stimulant effects from meth can last for hours, in contrast to only 
minutes for crack cocaine. Not only can the meth abuser stay awake for 
days when he is high, but when its effects begin to wear off, the 
abuser is prone to violence, delusions, and paranoia. The drug often 
induces feelings of invincibility. In practice, this can cause met 
users to ignore the risk of contracting AIDS, hepatitis, or other 
diseases. As a general matter, people who are high on meth tend to 
engage in extremely high-risk activities that often result in serious 
physical injury or death.
    In addition to the common dangers with which the drug confronts all 
its users, there is an even more insidious threat that meth poses to 
our vulnerable children. In some parts of the country, meth is so 
inexpensive that school children have been known to use their lunch 
money to buy it. We have already seen an explosion of illegal drug 
use--especially with hard drugs like heroin and cocaine--by high school 
students in just the last seven years. The relatively cheap price of 
meth foreshadows a tidal wave of new drug addiction among school 
children that could dwarf any drug problem we have dealt with in the 
past.
    Meth trafficking and production in the United States is currently 
divided between independent organizations based in small towns all 
across America and those networks affiliated with the Mexican organized 
crime syndicates. Both groups are producing more methamphetamine than 
ever before. Mexican crime organizations are increasingly successful in 
smuggling finished meth into the United States or at least smuggling 
the precursor chemicals themselves into our country for use at 
production laboratories right here in the United States.
    The growing popularity and extremely low cost of meth compared with 
other synthetic narcotics has spurred a geometric increase in the 
number of independent meth producers operating in the United States. 
Surging demand for the drug and widening profit margins are driving an 
alarming boost in meth production. It has been shown that a minimal 
investment in precursor chemicals and cooking equipment can yield a 
ten-fold profit on the sale of the finished product. Moreover, the 
illicit manufacture of meth can occur in a nearly unlimited variety of 
places--in hotel rooms, apartment complexes, residential kitchens, 
industrial areas, farms and mobile homes.
    Meth has also created new challenges and hazards to law 
enforcement. The caustic, flammable, and explosive nature of the 
chemicals required to produce meth imperils the lives of innocent 
bystanders and the police as much as it does the criminals who pedal 
it. The storage of these hazardous chemicals and their toxic byproducts 
pose environmental, health, and safety risks to an entire community. 
For example, ongoing meth production is extremely prone to accidental 
explosion and fire.
    Meth traffickers and producers typically dump their waste products 
on the ground, in streams and lakes, and in local sewage systems and 
septic tanks. Some simply bury the hazardous material in their 
backyards, where it is absorbed into the soil and eventually 
contaminates natural ground water systems.
    As a result, cleaning up a clandestine meth laboratory is very 
hazardous, complex, expensive, and time consuming--a task often beyond 
the expertise of the police. The size of meth waste products and any 
unused precursor chemicals can vary from a few pounds to several tons, 
depending on the size of the lab. These toxic materials must be safely 
transported to an authorized hazardous waste facility, stored as 
evidence for trial, and then destroyed. The cost of gathering and 
storing evidence of meth trafficking or production as well as the 
cleanup of meth labs is becoming as financially prohibitive as it is 
physically dangerous.
    We must have a firm commitment to addressing this problem. While it 
remains vitally important to educate our children about the dangers of 
meth and other illegal drugs, strict law enforcement has always proven 
to be effective in decreasing drug use by adults. We must make every 
effort to subject drug producers and traffickers to the full penalties 
of the law. Also, we must make certain that DEA has the proper 
resources, training, and focus to do its part to address this issue.
    This hearing is important to help us better understand and address 
this most serious problem facing not only the Midwest but our entire 
country.

    Senator Ashcroft. Now, meth is one of the most serious drug 
problems in our Nation, whether we are talking about the 
Midwest or whether we are talking about the Far West. Senator 
Feinstein of California and I have collaborated on a number of 
efforts in the U.S. Senate regarding this because California 
also faces this problem in a serious way. It may be the most 
serious of the law enforcement problems facing Missouri 
enforcement officials here. One only reads the newspapers in 
our communities to understand the impact of this drug on our 
State.
    On January 19, meth reportedly played a vital role in 
Springfield's worst mass murder ever. Police discovered the 
bodies of a pregnant woman and three of her children. The 
murdered woman, Erin Vanderhoff, was more than 9 months 
pregnant, due to have another child at any time. Three people 
have been charged in the murder, including the father of the 
unborn child. Although details are still emerging, a report in 
the Kansas City Star suggests that two of the defendants were 
motivated by a desire to ensure that child support payments did 
not deprive them of money to support their meth habit. In other 
words, if this due child were to be born, the support payments 
might impair their ability to feed the meth habit. A third 
individual, apparently, according to the news reports, had 
agreed to take part in the plan in order to get some meth--
something called a ball of meth, worth approximately $300.
    Unfortunately, these kinds of incidents are not isolated. 
In a time of national prosperity, the rising tide of drug abuse 
in general, and the rise of meth in particular, is a serious 
problem that we must address. While we celebrate the stock 
markets as they skyrocket to new highs, we cannot look the 
other way as the levels of teenage drug abuse skyrocket.
    In 1998, the level of illicit drug use by 12th graders in 
the last 30 days, in other words they are interviewed, ``Have 
you used drugs in the last 30 days,'' it was more than 177 
percent of the level that it was just 7 years earlier.
    The numbers for heavy drugs are even more alarming. In 
1998, the percentage of 12th graders who used cocaine in the 
last 30 days was 178 percent of the 1992 level. The percentage 
of heroin was 250 percent of the 1992 level. The plain facts 
are that drug use among our Nation's youth is far too common 
and becoming far more common.
    We must reverse this trend. Our children are our greatest 
asset, and they are at great risk in the form of drugs. They 
are our most vulnerable members of our society, and more than 
any other group young people face the highest risks of being 
lost to drugs forever. Protecting our children from drugs has 
become more difficult than ever.
    In the last few years, a new enemy, meth, has emerged to 
join the other more familiar threats, the threats of cocaine, 
heroin, and marijuana. Meth appears to be to the 1990's what 
cocaine was to the 1980's and what heroin was to the 1970's. 
The problem is growing exponentially in both Missouri and in 
the nation at large. Nationwide, levels of meth use among high 
school students have doubled since 1992. That is a little 
bigger increase for meth than for the other drugs.
    In Missouri, the problem appears to be increasing even more 
rapidly. In 1992, DEA agents seized two clandestine meth labs 
in the State of Missouri. By 1994, there were 14 seizures. That 
was serious enough. But by 1997 they seized 421 clandestine 
meth labs.
    The law enforcement personnel we have gathered here today 
have dealt with the meth problem firsthand. They know the 
unique challenges that meth presents. They know the dangers 
posed by the toxic substances used in the manufacture of the 
drug. They have dealt with the cleanup of problems created by 
abandoned meth labs.
    A dangerous meth user can become very violent, paranoid. 
Some of you have educated me about the interdiction challenges 
posed by a powerful drug that can be home-cooked in small 
quantities. Others have seen the devastation and hardship of 
families ripped apart by meth. However, despite all these 
enormous challenges, I have no doubt that, if we work together, 
we can defeat meth. America has never faced the problem that 
has proven too great for us to meet or too big for us to 
tackle. The meth challenge, while daunting, is no exception. If 
we make a determined and full engagement in our war against 
meth we will win. We will defeat meth.
    In my opportunity to serve in the Senate I have fought the 
growth of meth trafficking. For example, I worked to establish 
the Midwest High Intensity Drug Trafficking Area, or the HIDTA, 
for the Midwest, and we were pleased to be able to locate that 
center here in Kansas City. Since then, Senator Bond and I have 
worked to ensure that the Midwest HIDTA was fully funded. 
Senator Bond and I also worked to establish a zero tolerance 
for meth manufacturing in public housing. Finally last year 
Congress passed my legislation to increase the mandatory 
minimums for meth trafficking to the level of cocaine and other 
more serious--what had been thought to be more serious drugs. 
No drug is more serious than meth. And we also expanded the 
class of meth offenses eligible for the death penalty.
    More recently, in February I introduced the Determined and 
Full Engagement Against the Threat of Meth Act, known as Defeat 
Meth Act. Senator Thurmond, Senator Bond, and four others have 
cosponsored this measure. The Defeat Meth Act represents the 
next step in the fight against meth by introducing five main 
components aimed at combating the growing meth problem.
    First, the bill directs the U.S. Sentencing Commission to 
adjust its guidelines to increase penalties for meth labs not 
covered by the mandatory minimums.
    Second, it authorizes $30 million for Drug Enforcement 
Administration's meth initiative aimed at stopping the spread 
of meth by hiring more agents and providing additional training 
for State and local law enforcement officers.
    Third, it authorizes $25 million for new programs to 
educate parents and teachers about the dangers of meth.
    Fourth, it amends the Controlled Substances Act to add two 
new precursor chemicals.
    Finally, the bill amends the Federal drug paraphernalia 
statute to cover methamphetamine paraphernalia.
    Now, these measures are essential in the war against meth, 
and no plan, in my judgment, by any single individual or group 
of individuals will stop meth overnight. I think we have to 
understand that, unless we plan, we will never stop meth, and 
we must do that.
    Moreover, there are obvious limits on what can be done, but 
we must seek to do all that we can do. Defeating meth will be a 
struggle that takes place in the schools, thecommunities, 
churches, and within families. A victory against meth will require 
coordination among Federal, State, and local law enforcement officials, 
and that is the focus of the hearing this morning.
    I want to thank everyone for being here and I want you to 
know the opinions and experiences of those of you working in 
law enforcement are vital to the legislative process. I 
appreciate very much your efforts and your willingness to 
share. Meth presents a formidable challenge. With efforts such 
as this hearing, I think the challenge can be met. We can 
overcome these kinds of challenges. We have in the past, and we 
can overcome them in the future.
    Now, having done what Senators are wont to do, talk for 
long periods of time, I want to have the opportunity of hearing 
from you. And I want to thank and welcome our Governor for 
coming to the hearing today. I'm pleased that this is a matter 
which he cares deeply about and would come and share with us. 
He has a long-standing interest in fighting illegal drugs, 
dating back to his work on the issue as Lieutenant Governor, 
and I welcome his testimony, and I hope that he will have an 
opportunity to stay and hear the views of others, the local law 
enforcement officers who are fighting with this problem and 
joining with him and joining with Federal authorities in 
seeking to mitigate this very serious threat to our community.
    Governor Carnahan.

   PANEL CONSISTING OF HON. MEL CARNAHAN, GOVERNOR, STATE OF 
   MISSOURI; GARY STARKE, SHERIFF, PETTIS COUNTY, MO; DAVID 
 BARTON, EXECUTIVE DIRECTOR, MIDWEST HIDTA; JOHN T. PIERPONT, 
    SHERIFF, GREENE COUNTY, MO; KIRK D. THOMPSON, ASSISTANT 
   DIRECTOR, KANSAS BUREAU OF INVESTIGATION; TERRI WILLIAMS, 
     DIRECTOR OF OPS NCMO DRUG TASKFORCE; AND TODD GRAVES, 
            PROSECUTING ATTORNEY, PLATTE COUNTY, MO

                 STATEMENT OF HON. MEL CARNAHAN

    Governor Carnahan. Thank you, Senator, and I do appreciate 
the opportunity to testify on Missouri's extensive efforts to 
battle the deadly drug, methamphetamine. Meth has been in 
existence since World War II. However, because we as a society 
were not tracking the problem until the 1990's, we have little 
information about how widespread its use has been in the past. 
Today we recognize that it is just as serious as crack cocaine 
as a problem, and those problems were very prevalent in the 
1980's. We must marshal the forces that we have at our disposal 
to attack this problem on all fronts, enforcement, education, 
prevention, and treatment, and we need this kind of coordinated 
attack in order to be successful in meeting its lethal threat. 
This is the approach we have taken in Missouri, and it is 
having a positive impact.
    To strengthen enforcement, our administration worked with 
the State legislature to pass one of the toughest antimeth laws 
in the country last year, a law that is now being used as a 
model by other States. Under its provisions, meth manufacturers 
and traffickers now face the same severe penalties imposed on 
criminals that deal in the other highly addictive drugs, such 
as crack cocaine. Furthermore, we reduced the amount of meth 
necessary to gain a felony conviction; we expanded the previous 
list of precursor chemicals to include the chemicals used in 
the production of meth so that law enforcement officials can 
track large purchases of these substances; we increased funding 
for investigative crime labs and other officer safety equipment 
and established new meth training programs for law enforcement 
officers; and we provided new resources, personnel, and 
training to safely clean up the contamination caused by meth 
labs.
    On the subject of cleanup, it is important to note to the 
committee that those efforts are much more cost effective when 
left in State and local hands. A recent comparison by our 
Department of Public Safety shows that the average cost for 
Federal cleanup was running an average of $2,500 a lab while 
State cleanup is being done at an average cost of $53 per lab.
    On the education front, we have established a much-
publicized toll-free hotline through the Missouri State Highway 
Patrol so citizens can help in the location and dismantling of 
meth labs. To reach children early, before they become involved 
with illegal drugs, we have conducted activities such as a meth 
poster contest in our schools, and those antimeth messages 
prepared by the students are now on billboards all across the 
State.
    Because of Missouri's all-out war on meth, we are seeing 
significant results. In the past 2 years alone, we have shut 
down more than 1,500 meth labs in our State; but we have much 
more work to do, and it will require the cooperation of all 
Federal, State, and local authorities. That is why our 
administration worked from the beginning to implement the HIDTA 
Program here in Missouri, and that's why for the third year in 
a row I will be convening an antimeth summit of law enforcement 
authorities at all levels so that we can share information on 
how we can make our current strategies even more effective in 
fighting meth.
    I want to recognize the U.S. Attorney's Office of the 
Western District of Missouri, particularly U.S. Attorney Steve 
Hill, for working side by side with us on this important issue. 
I would also like to recognize David Baker of the Jackson 
County Prosecutor's Office, who helped draft the antimeth 
legislation passed last year.
    There are several steps that I believe should be taken at 
the Federal level to help us continue to win battles in this 
war against meth. First, States need more flexibility to attack 
the problem where it is developing. Right now States are only 
allowed to target certain areas, so the meth manufacturer 
simply moved to another area that is not targeted. Our whole 
State should be recognized by HIDTA so that full law 
enforcement resources can be focused wherever the meth problem 
exists.
    Second, Missouri's tough new antimeth law is running many 
of these dangerous criminals into our neighboring States. 
Missouri will certainly continue to be tough on meth 
manufacturers and users, and we hope that other states will 
follow that example, but until they do Federal authorities need 
to come up with an overall strategy for addressing these 
criminal movements across State lines.
    Third, we need increased resources from the Federal 
Government to expand our education efforts. We have a great 
deal of drug education activity in our State at the elementary 
level, but our current limited resources make it impossible to 
reach into all the junior high and high schools.
    Senator it will take a strong Federal, State, and local 
partnership to win the war against meth with an emphasis on 
community involvement. As you can see from the aggressive 
approaches we have taken over the past few years, Missouri is 
committed to winning this war. We are pleasedthat Federal 
legislation is under consideration and emulates many of the actions we 
have already taken, and we stand ready to work with you in any way 
possible to rid our society of this monster of meth that stalks our 
citizens, leaves a trail of death, contamination, and destruction in 
its wake.
    Our Missouri Director of Public Safety, Gary Kempker, and 
the superintendent of the Missouri State Highway Patrol, Weldon 
Wilhoit, who have been instrumental in our war against meth, 
are here with me today, and we will all be glad to answer any 
questions that the committee might have. And thank you for 
permitting me to testify. Thank you very much.
    Senator Ashcroft. I want to thank the governor for his 
testimony. We have been working hard on the Federal level to 
address the problem, but there are obvious limits to what any 
one component of this team can do. Without a firm commitment 
from the State to fight meth we cannot succeed, and I 
appreciate your testimony, hoping that we will all be able to 
learn how to improve our performance in this area.
    It is my pleasure now to call upon Sheriff Gary Starke from 
Pettis County. He obviously has an opportunity to deal with 
this problem in a hands-on way, probably in ways that aren't 
particularly pleasant to him. But it's a pleasure to welcome 
you, Sheriff Starke, if you would proceed with your testimony.

                    STATEMENT OF GARY STARKE

    Mr. Starke. Thank you, Senator, and I would like to thank 
you for your long-standing record on these types of issues in 
combating methamphetamine.
    I'm the sheriff of a rural county located 100 miles east of 
the Kansas City metro area. The population of my county is only 
40,000. The largest city is the county seat, Sedalia, which has 
a population of 20,000. Despite our rural nature, we are not 
immune to nor have we escaped from the scourge of 
methamphetamine. Sadly, our community is inundated with this 
deadly drug. The most disturbing observation that I share with 
you is the fact that over the years I have seen the users of 
this particular drug become younger and younger and younger.
    We have been very proactive in attempting to combat this 
menace. Despite my very limited resources, I have for the past 
10 years dedicated one investigator to work nothing but drug 
enforcement, and our efforts have met with some success. Over 
the past 2 years, my office has raided and closed down 31 
working methamphetamine laboratories in our county, resulting 
in the prosecution of dozens of individuals responsible for the 
production of this drug.
    In these efforts, we cooperate closely with the entire 
community. We work with our police departments, local 
merchants, motels, and others who are in a position to supply 
us with information and leads regarding the manufacture of 
methamphetamine. As you may surmise, drug enforcement is very 
time and manpower intensive, often entailing many hours of 
investigation and surveillance. However, these are not the only 
challenges which rural law enforcement faces.
    We are not a member of a regional drug taskforce. To be 
included in the taskforce that services our area, I would be 
required to pay to belong. I simply cannot afford to allocate 
any of my limited funds towards a kitty for regional drug 
enforcement, nor can I afford to allocate any manpower to such 
an effort. We have for the past several years applied for 
Narcotics Control Assistance Program, or NCAP, funding to 
assist us in our local efforts. Each year we have been denied 
funding. These funds, which are administered and allocated by 
the Missouri Department of Public Safety, are for the express 
purpose of helping local jurisdictions fight the war on drugs. 
However, my drug investigator was told in person by a high-
ranking DPS official that we will never qualify nor receive any 
NCAP funding because we are not a member of a regional drug 
taskforce. Based on this, we stopped even applying for the 
funds.
    Many rural sheriffs' offices throughout Missouri rely on 
the Missouri State Highway Patrol to supplement their 
enforcement efforts. However, about 1\1/2\ years ago the 
Missouri State Highway Patrol implemented a policy which 
precludes their troopers from assisting local sheriffs in 
making entry to clandestine methamphetamine laboratories. While 
I am sympathetic to the dangers that troopers face when making 
entry to the clandestine methamphetamine lab, my deputies face 
those same dangers. We are no better equipped nor are we 
necessarily any better trained than those troopers. We used to 
be able to rely on having troopers to assist us but not any 
longer.
    By all accounts, the High Intensity Drug Trafficking Area 
initiative is a success in the metropolitan area of Kansas 
City. However, it is often difficult for a small local 
sheriff's office in out-State Missouri to realize or observe 
those successes while we continue to operate with limited 
resources of manpower and funding. Over 90 percent of all 
police agencies are similar to ours, fielding fewer than a 
dozen enforcement officers. Rural counties, lacking a tax base 
and resources of the metropolitan areas, are especially hard 
pressed to adequately police their communities.
    Many of the initiatives and programs designed to assist 
local law enforcement efforts never trickle down past the State 
level. To those of us who live and work in those rural areas, 
Federal assistance to large well-funded State agencies and 
major metropolitan police departments seems analogous to the 
Small Business Administration providing funding to Fortune 500 
companies. Many sheriffs in the State feel that we are the 
forgotten warriors in this war on drugs.
    Thank you, Senator.
    Senator Ashcroft. Thank you very much, Sheriff Starke.
    It's now my pleasure to call upon David Barton, who is the 
executive director of the Midwest High Intensity Drug 
Trafficking Area. I want to thank him and commend him for the 
HIDTA, for the work they are doing in a number of States in the 
Midwest. I first met him several years ago here in Kansas City 
when we came to learn about meth, back before we got the HIDTA 
established, back when he was still working for KCPD. So you 
know how to find your way into this building, I'm sure. I just 
dropped by the HIDTA 3 weeks ago, spent some time there getting 
an idea of exactly how that was working, to get brought up to 
speed on the changing nature of meth, and some of the concerns 
that you mentioned to me at that time prompted me to want to 
get to a place where I could hear from people at ground zero in 
this war.
    So, if you would go ahead, Mr. Barton, I appreciate it, the 
executive director of the Midwest HIDTA.

                   STATEMENT OF DAVID BARTON

    Mr. Barton. Thank you, Senator, for the opportunity for 
input into this serious problem.
    The mission of the High Intensity Drug Trafficking Area 
program is to reduce drug trafficking in critical identified 
regions of the country through partnerships of local, State, 
and Federal drug control agencies. The HIDTA program is not an 
agency but is an alliance or federation of law enforcement and 
criminal justice agencies.
    In December 1996 the Office of National Drug Control Policy 
designated 40 counties in Iowa, Kansas, Missouri, Nebraska, and 
South Dakota as the Midwest High Intensity Drug Trafficking 
Area. On February 1, 1999, eight counties in North Dakota were 
added, as was 24 additional counties in the original five 
States being submitted for designation.
    Operational since mid-1997, the primary focus of the 
Midwest HIDTA is methamphetamine distribution and 
manufacturing. The meth epidemic plaguing these States has 
resulted from two problems: A steadily increasing importation 
of meth into the region by organized trafficking groups and the 
clandestine manufacturing of meth by hundreds of 
entrepreneurial users and dealers. Importation and distribution 
by primarily Mexican organizations is common in all States. 
However, the clandestine manufacturing phenomenon is currently 
concentrated in Missouri, Kansas, and Iowa.
    The HIDTA strategy is implemented through several 
components. Each State, through designated advisory boards, has 
identified threat, determined mission, and developed strategies 
and initiatives. The Midwest HIDTA executive committee and the 
Midwest HIDTA director, in cooperation with the board, 
coordinates the integration and synchronization of all 
participating agencies' initiatives to ensure a regional 
unified effort.
    The Midwest HIDTA executive committee is made up of 
executives from 12 Federal and 12 State and local criminal 
justice agencies. The committee, selected by their peers 
according to guidance from ONDCP, provides oversight, policy 
guidance, review, and approval of all 33 initiatives and 
budgets submitted to ONDCP. The special agent in charge of DEA 
St. Louis Division currently chairs this executive committee.
    The HIDTA Program consists of five subsystems. The 
intelligence subsystem will be implemented by improving the 
collection, analysis, and dissemination of meth intelligence, 
instituting a systems network of sharing throughout the area. 
The Midwest HIDTA, through the Investigative Support Center, 
will coordinate this effort with national intelligence centers 
such as EPIC, the National Drug Intelligence Center, and 
Regional Information Sharing System Centers.
    The Midwest HIDTA investigative subsystem focuses on the 
investigative needs of law enforcement agencies located in 
designated counties. Where possible, and in the more urban 
areas, collocated HIDTA multijurisdictional groups have been 
formed. In rural designated counties, where resources and 
manpower are always scarce, HIDTA funding has been utilized to 
enhance existing multiagency taskforce operations. For fiscal 
year 1999, 26 Federal, State, and local taskforces, three State 
police response initiatives, and the DEA Regional Enforcement 
Program will be enhanced through HIDTA funding. In fiscal year 
1999, 105 local, 15 State, and 4 Federal agencies are directly 
participating in the Midwest HIDTA.
    The proliferation of clandestine labs in designated HIDTA 
counties has also severely impacted forensic laboratories. The 
sheer volume of exhibits, particularly those collected from 
laboratory seizures, have adversely affected the efficiency of 
the laboratories, resulting in backlogs and long delays in 
processing evidence. In addition, the workload of the various 
laboratories often prevents chemists from responding to clan 
lab seizures and providing on-site expert support to increase 
safety to agents, officers, and to the public. This initiative 
provides enhancement to seven State or local forensic labs and 
to the DEA, which has established a satellite lab in the Kansas 
City area.
    The increased enforcement activity has resulted in a 
dramatic increase in investigations and arrests. The resulting 
increase in criminal prosecutions has strained the resources of 
the U.S. Attorney's Office in the eight Federal judicial 
districts in the region. The special assistant U.S. attorney 
initiative is designed to enhance the resources of these 
offices to ensure that additional meth cases are aggressively 
prosecuted at the appropriate or at the Federal level.
    The demand reduction subsystem has developed a 
comprehensive educational campaign to assist and leverage law 
enforcement and community antidrug coalitions in educating the 
region's youth, families, and other at-risk groups regarding 
the consequences of meth.
    In summary, the HIDTA program allows law enforcement to 
enhance enforcement activities, provide focus to critical 
problems, encourage innovation, and facilitate cooperation 
between regional criminal justice agencies. The Midwest HIDTA 
has developed a cohesive, comprehensive program combining 
regional and focused initiatives to implement the HIDTA 
mission.
    Thank you, Senator.
    [The prepared statement of Mr. Barton follows:]

    Prepared Statement of David Barton on Behalf of the Midway High 
                    Intensity Drug Trafficking Area

                      1999 midwest hidta strategy
    The Mission of the High Intensity Drug Trafficking Area Program is 
to reduce drug trafficking in critical identified regions of the 
country through partnerships of local, state, and federal drug control 
agencies. The HIDTA Program is not an agency but is an alliance or 
federation of law enforcement and criminal justice agencies.
    In December 1996, the Office of National Drug Control Policy 
(ONDCP) designated identified counties in Iowa, Kansas, Missouri, 
Nebraska, and South Dakota as the Midwest High Intensity Drug 
Trafficking Area (HIDTA). The Midwest HIDTA encompassed forty (40) 
counties in these five states. On February 1, 1999, 8 counties in North 
Dakota were added to the Midwest HIDTA. Also, twenty-four (24) 
additional counties in the original five states were submitted for 
designation.
    Operational since mid 1997, the primary focus of the Midwest HIDTA 
is to address methamphetamine distribution and manufacturing. In recent 
years, these six states and in particular the designated counties 
located in the ``Heart of America'', have experienced an unprecedented 
increase in the manufacturing, distribution, and use of 
methamphetamine. The methamphetamine epidemic plaguing these states has 
resulted from two problems: a steadily increasing importation of 
methamphetamine into the region by organized trafficking groups and the 
clandestine manufacturing of methamphetamine by hundreds of 
entrepreneurial users/dealers. Importation and distribution of 
methamphetamine by primarily Mexican organizations is common in all 
states; however, the clandestine manufacturing phenomenonis currently 
concentrated in Missouri, Kansas, and, to an increasing extent, in 
Iowa.
    Data collected from 1996, 1997, and 1998 indicates a dramatic 
increase in the number of clandestine laboratories discovered by law 
enforcement agencies in the region. As an example, during calendar year 
1998, the Iowa Division of Narcotics Enforcement has seized 320 labs, 
or a 408 percent increase, over 1997.
  the overall concept of the strategy is implemented through several 
                               components
    Each state, and the Kansas City designated ``Hot Spot'' through its 
designated Advisory Boards and in conjunction with participating 
agencies has identified threat, determined the mission, and developed 
related strategies and initiatives. The Midwest HIDTA Executive 
Committee and the Midwest HIDTA Director, in cooperation with the 
Boards and other subcommittees, coordinate the integration and 
synchronization of all participating agencies' initiatives to ensure a 
unified effort in achieving the mission of the Midwest HIDTA.
    The Midwest HIDTA Executive Committee is made up of executives from 
twelve federal and twelve state/local criminal justice agencies. The 
committee, selected by their peers according to guidance from ONDCP, is 
currently chaired by the Special Agent in Charge, DEA St. Louis 
Division, with a Lieutenant from the Sioux Falls South Dakota Police 
Department, serving as the vice-chair. The Executive Committee provides 
oversight, policy guidance, review and approval of all initiatives and 
budgets submitted to ONDCP. The Director provides day-to-day 
administration and program management and serves as a conduit to the 
participating agencies for directives, policy and related 
administrative information required by ONDCP.
    The Midwest HIDTA's 33 initiatives focus on law enforcement and 
drug market reduction activities. These initiatives are organized into 
and support five counterdrug subsystems. Each subsystem is integral to 
the success of the Midwest HIDTA.
    Intelligence Subsystem: An integral component in the Midwest HIDTA 
Strategy is the need to enhance and increase the free exchange of 
methamphetamine intelligence/information among all HIDTA participants 
and other agencies throughout the region. The Midwest HIDTA will 
improve the collection, analysis, and dissemination of methamphetamine 
intelligence/information by instituting a ``systems network'' of 
sharing throughout the area. The Midwest HIDTA through the 
Investigative Support Center, will coordinate this effort with national 
intelligence centers such as the El Paso Intelligence Center (EPIC), 
the National Drug Intelligence Center (NDIC), and Regional Information 
Sharing System (RISS) Centers. Partnerships will also be developed with 
other HIDTA's such as the Southwest Border HIDTA and the Los Angeles 
HIDTA, source areas for much of the methamphetamine brought into the 
Midwest by trafficking organizations.
    Investigation Subsystem: The Midwest HIDTA Investigative Subsystem 
focuses on the investigative needs of law enforcement agencies located 
in designated counties. Due to the size, geographic separation and the 
rural nature of most of the designated counties within the Midwest 
HIDTA, it is difficult to establish stand-alone collocated HIDTA task 
forces in the more rural counties. Where possible and in the more urban 
areas, collocated HIDTA multi-jurisdictional groups have been formed. 
In rural counties where resources and manpower are always scarce, HIDTA 
funding has been utilized to enhance existing multi-agency task force 
operations. These task forces target the most significant individuals 
in their area involved in the distribution and/or clandestine 
manufacturing of methamphetamine. For fiscal year 1999 26 federal, 
state, and local task forces, 3 state police response initiatives, and 
the DEA Regional Enforcement program will be enhanced through HIDTA 
funding. In fiscal year 1999 105 local, 15 State, and 4 federal 
agencies are participating in the Midwest HIDTA program.
    Forensic Laboratory Subsystem: The proliferation of clandestine 
labs, in designated HIDTA counties has severely impacted federal, 
state, and local forensic laboratories. The sheer volume of exhibits, 
particularly those collected from laboratory seizures, have adversely 
affected the efficiency of the laboratories resulting in backlogs and 
long delays in processing evidence. These long processing delays 
negatively impact ongoing investigations and prosecutions. In addition, 
the workload of the various federal, state, and local laboratories 
often prevents their chemists from responding to clandestine laboratory 
seizures and providing on-site expert support. Laboratory seizures made 
without a chemist on-site run a higher risk of danger to agents, 
officers, and the public. The Federal/State Forensic Laboratory 
Enhancement Initiative provides the needed additional resources to the 
laboratories in the region that have been affected the most. This 
initiative provides enhancement to 7 state/local forensic laboratories 
in the six state region, and the Drug Enforcement Administration North 
Central Lab, which established a satellite laboratory in the 
metropolitan Kansas City, Missouri area.
    Prosecution Subsystem: The increased enforcement activity has 
resulted in a dramatic increase in federal, state and local 
investigations and arrests. The resulting increase in criminal 
prosecutions has strained the resources of the U.S. Attorney's Offices 
in the eight federal judicial districts in the region, as well as many 
state and local prosecutors' offices. The Midwest HIDTA Special 
Assistant United States Attorney (SAUSA) Initiative is designed to 
enhance the resources of these U.S. Attorney's Offices to ensure that 
additional methamphetamine cases are aggressively prosecuted at the 
federal or state level. Many of the Midwest HIDTA funded SAUSAs will be 
cross-designated to assist state prosecutors in their area. 
Additionally, these SAUSAs will seek to increase cooperation and case 
development with state and local law enforcement agencies and multi-
jurisdictional task forces throughout the region.
    Demand Reduction Subsystem: The Demand Reduction Subsystem 
interacts and enhances both the investigative and prosecution 
subsystems. This initiative has developed a comprehensive public 
education campaign to assist and leverage existing law enforcement and 
community anti-drug coalitions in educating the region's youth, 
families, and other at risk groups regarding the consequences of 
methamphetamine. The initiative also is coordinated with the National 
Campaign developed by ONDCP and the Partnership for a Drug Free 
America.
                 desired outcomes for fiscal year 1999
    By taking a regional coordinated approach to this problem, the 
enforcement issues of target displacement and cross-jurisdictional 
investigations is diminished. The HIDTA Program allows law enforcement 
to enhance enforcement activities, provide focus to regional problems, 
and facilitate cooperation between Criminal Justice Agencies. The 
Midwest HIDTA has developed a cohesive, comprehensive program combining 
regional, and focused initiatives to implement the mission.

    Senator Ashcroft. Thank you very much and thank you for 
your work and thank you for your awareness of not only the 
problem here in the State of Missouri but as it extends all the 
way up to close to the Canadian border.
    It's a special pleasure to call upon this next individual, 
who is responsible for the safekeeping of my family and me in 
our farm in Greene County, and he's in his fifth term as the 
sheriff of Greene County.
    I read an article in the newspaper yesterday about your 
father, who was sheriff, and when one of the prisoners smuggled 
into the prison a hacksaw blade in his wooden leg, your father 
then eventually deprived him of his wooden leg and said he 
would have to hop around for the rest of his time in prison. I 
thought to myself of the many lawsuits that that might occasion 
in today's environment.
    Mr. Pierpont. That's right.
    Senator Ashcroft. I guess that was one way to solve the old 
hacksaw and the wooden leg problem. But Sheriff Pierpont is the 
past president of the National Sheriffs' Association, 8 years 
as U.S. marshal in western Missouri, which puts you back in 
your home territory in that respect, on the board of directors 
for the Combined Ozarks Multi-Jurisdictional Enforcement Team, 
COMET. Greene County is one of Missouri's largest, and we have 
not only seen the incidence of meth, but we have seen an 
incidence, I guess, of meth importation there, and I don't know 
whether you are going to address that or not, but as I talk to 
officials from other parts of the country, they talk about 
cartels in the manufacture of methamphetamines, and sometimes 
amused by the fact that there are the clandestine labs like we 
have here.
    But I'm very pleased to welcome you and would welcome your 
testimony at this time, Sheriff.

                 STATEMENT OF JOHN T. PIERPONT

    Mr. Pierpont. Well, thank you, thank you. I'm privileged to 
be here, and I want to compliment you on coming to the State of 
Missouri and the Midwest and here in Kansas City, giving us, 
the law enforcement, the opportunity to express to you our 
needs.
    I speak for the 114 sheriffs of the State of Missouri. My 
county, Greene County, which is the Senator's home, covers 677 
square miles. In 1998, there were 72 labs brought down in our 
county alone. The percentage of moving continues to increase. 
Already in 1999, in just 3 months, we have taken down and 
seized 60 labs, for the third-largest county. For many years 
Missouri has--and southwest Missouri has really been the focal 
point of the growing of marijuana. The marijuana growing 
continues to go on, but the meth has become even a bigger 
problem for us than the marijuana. The marijuana problem, as 
the Senator can tell you--we went out in helicopters, by the 
National Guard and looked for marijuana, and the sad part was 
we found a lot of it.
    Meth continues to grow throughout the country. Cleanup of 
meth labs and the investigation is a big concern for all of us 
sheriffs, moneywise. In some cases--I know the governor is--but 
there has been some lab cases throughout the United States 
where it takes as high as $10,000 and maybe more to clean up a 
meth lab. Also there are not enough trained individuals 
throughout the country, not enough equipment to clean up those 
labs.
    Interstate 44 from Chicago to LA, which goes through Greene 
County, through our county, continues to be one of the hottest 
pipelines in the United States to transport all types of drugs. 
Numerous stops and arrests have made a large amount of--have 
ended up in a large amount of money, drugs that have been 
seized going through Greene County.
    Grants to assist sheriffs sometimes are hard to get to the 
local level. The grants in most cases come to the State, who 
then has the work of picking the counties to receive the 
Federal grant money. In some cases in Missouri we have sheriffs 
that have less than a half a dozen officers, deputies, and the 
money never reaches those small counties in some cases. 
However, those counties with the small sheriff's office have 
major problems with drugs just like those of us in big 
counties.
    The Federal Government must be sure that all law 
enforcement agencies needing money to fight drugs get the 
proper grants as soon as possible. Money and equipment are 
needed. Also major case squads, which a lot of us here 
testifying today play a part in. In some of those areas we need 
more and more up-to-date equipment for those major cases, which 
some of those revolve around drug cases. This is a problem for 
all sheriffs in Missouri.
    We in law enforcement in Missouri and the other 49 States 
need more deputy sheriffs to fight the problem of drugs. Law 
enforcement is a team effort, and we need to assist and get the 
assistance of the Judicial Senate Committee to help us control 
this big problem. I want to say that we need the Judicial 
Committee to help us take a big bite out of crime.
    I want to thank Senator Ashcroft for giving us the 
privilege to come here to testify today, as John has--Senator 
Ashcroft has always been a law enforcement individual. We, at 
the national sheriffs' level, a couple years ago, in 1996, in 
Portland, OR, gave him the award as the President's Senator who 
has done more for law enforcement throughout the United States, 
and we thank you for that and thank you for letting us testify.
    Senator Ashcroft. Thank you very much, Sheriff Pierpont.
    It's my pleasure now to call upon Kirk Thompson, who is the 
Assistant Director of the Kansas Bureau of Investigation, the 
KBI, and not the KGB but the KBI. Meth is not just a Missouri 
problem, and although Missouri meth may have become part of 
Kansas' problem, because I think we saw some of this stuff 
apparently earlier than some of our surrounding States did. But 
it's my pleasure to call upon Director Thompson of the Kansas 
Bureau of Investigation.
    [The prepared statement of Mr. Pierpont follows:]

                 Prepared Statement of John T. Pierpont

    John T. Pierpont is serving his fifth term as Sheriff of Greene 
County, the 3rd largest county in Missouri. He was first elected 
Sheriff in 1981. Prior to being elected Sheriff, he was the United 
States Marshal for Western Missouri for 8 years. He is currently on the 
Board of Directors of the Combined Ozarks Multi-Jurisdictional 
Enforcement Team (COMET), and the Chairman of the South Central Major 
Case Squad. He is the former President of the National Sheriffs' 
Association 1996, former President of the Missouri Sheriffs' 
Association, former President of the Missouri Peace Officer's 
Association (MPOA) and the former President of the Make-A-Wish 
Foundation of Missouri, Inc.
                               testimony
    Dear Mr. Chairman, Senator Strom Thurmond and Commission Member, 
Senator John Ashcroft: My name is John T. Pierpont. I am the Sheriff of 
Green County Missouri (Springfield, Missouri), the 3rd largest county 
in Missouri. I am serving my 5th four year term as Sheriff. Prior to my 
current position, I served as the United States Marshal for 8 years for 
the Western District of Missouri with my headquarters here in Kansas 
City. I was appointed to that position by then President Richard Nixon. 
I am speaking for the 114 Sheriffs of Missouri. My county covers 677 
miles and in 1998 there were 72 methamphetamine labs, both permanent 
and moving, investigated in my county alone. Already in 1999, in just 3 
months, we have taken down and seized 60 labs. For many years Missouri, 
and especially Southwest Missouri, has been known as the capital of 
marijuana growth. It has been a major problem for all of us in law 
enforcement. In the past few years methamphetamine has become an even 
bigger problem although marijuana is still the choice drug for most 
drug users, young and old. Meth use has grown tremendously throughout 
the country. The cleanup of meth labs after an investigation is a big 
concern for all of us Sheriffs money wise. It can cost up to $10,000.00 
to cleanup a lab. Also there are not enough trained individuals 
throughout the country and not enough equipment to clean up the labs.
    I44 from Chicago to Los Angeles, which goes through Greene County, 
continues to be one of the hottest pipelines in the United States to 
transport all types of drugs. Numerous stops and arrests are made and 
large amounts of money and drugs have been seized going through Greene 
County. Grants to assist local Sheriffs sometimes are hard to get to 
the local level. The grants, in most cases, come to the state who then 
picks the counties to receive the Federal grant monies. In some cases 
in Missouri, we have Sheriff's Offices that have less than half a dozen 
Deputies, and the money never reaches those counties. However, the 
counties with small Sheriff's Offices have a major problem with drugs 
just like those in bigger counties. The Federal Government must be sure 
that all law enforcement agencies needing money to fight the drug 
problem get grants as soon as possible. Money and equipment are needed 
also for Major Case Squads, which in some areas operate with outdated 
equipment. This is a priority with Sheriffs in Missouri.
    We in law enforcement in Missouri and the other 49 states need more 
Deputy Sheriffs to fight this problem. Law Enforcement is a team effort 
and we need the assistance of the Senate Judiciary Committee to help us 
take an even bigger bite out of crime. Thank you Senator Thurmond for 
letting me appear before you and Senator Ashcroft. If there are any 
questions I will be more than happy to answer them.

                 STATEMENT OF KIRK D. THOMPSON

    Mr. Thompson. Thank you, Senator.
    On behalf of the Kansas attorney general, Carla Stovall, 
and Director Larry Welch of the KBI, I want to thank you for 
the opportunity to appear and discuss this crisis that is 
facing the State of Kansas and the Midwest, that crisis, the 
illegal production, trafficking, and use of the drug, 
methamphetamine, and the resultant violence in human suffering 
left in its wake.
    My testimony this morning will deal primarily with two 
aspects of the methamphetamine problem as seen from the 
perspective of the State criminal justice agency. The first 
issue I will address is the challenge of combating a highly 
mobile narcotics enforcement problem, and the second issue will 
be the challenge of providing support to those locations within 
our State that are not designated as HIDTA threat areas.
    The KBI is a State criminal investigative agency that 
functions as a division of the State attorney general's office. 
Our primary mission is the direct support of county and 
municipal enforcement agencies and the investigation of major 
criminal violations that involve multiple jurisdictions. A 
third but absolutely critical role is the delivery of 
specialized services to agencies that lack the training and 
resources to provide those services for themselves. The seizure 
and dismantling of clandestine methamphetamine labs is such a 
service.
    We, ourselves, are a small organization covering a 
geographic area of 105 counties, 82,000 square miles, and a 
population of 2.5 million. We have a current ratio of one 
narcotics enforcement agency to each of four counties or one 
agent for 91,000 citizens.
    With that background in mind, let me summarize our 
perspective on the methamphetamine problem and its highly 
mobile nature. One of our senior agents explains the challenge 
by using the analogy of the Hydra, the multiheaded monster of 
Greek mythology. It seems as though, whenever we dismantle one 
clandestine lab, at least two more springs up in its place. We 
attribute this phenomenon to three basic things: The ease of 
moving these labs; the ease of making methamphetamine; and 
third, but most troublesome for us, is the network of 
methamphetamine manufacturers.
    This network, hidden within the meth subcultures, serves to 
provide traveling teachers that spread the techniques and 
expertise relating to meth manufacture. Our investigations have 
repeatedly confirmed that people responsible for bringing the 
processes to Kansas come from outside our State, but by the 
same token we know that as the problems spread into Kansas we 
have been or will be the source of traveling meth dealers to 
our neighbors.
    Our investigations reveal that these meth cooks come into 
our State and establish contact with our resident violators. 
They pass along the knowledge of their trade and move on and 
establish contact in another area. It's like a nightmarish 
chain letter. The problem is increasing geometrically just like 
the heads of the Hydra, and with our current resources we just 
can't keep up with the pace.
    Our experiences with the mobile nature of the problem 
brings me to the issue of non--excuse me, of support to non-
HIDTA counties. In Kansas, there are two agencies equipped and 
trained to dismantle methamphetamine labs, the KBI and the DEA. 
In 1997, 67 percent of our 99 meth labs were in HIDTA counties. 
In 1998, 25 percent of our 189 labs were in HIDTA counties. And 
thus far in 1999, 30 percent of our 116 labs were in HIDTA 
counties.
    With these statistics in mind, I want to point out the 
mobile nature of the problem. It's absolutely necessary for the 
KBI and DEA to aggressively attack the problem. We can't let 
this thing breed in a given area until it reaches Hydra 
proportions. As a State enforcement agency, we know where the 
problem is at any given time, and we need to retain the 
flexibility to correlate Federal, State, and local resources to 
achieve the highest degree of integrity.
    I want to take a minute and thank the Federal Government 
for their leadership in Edward Byrne Memorial Grant Program, 
COPS and HIDTA programs. Without these critical programs, we 
couldn't begin to deal with this crisis. And although we have 
been discussing meth today, I have to tell you that other drug 
problems have not gone away nor have they been reduced in any 
significant way.
    The HIDTA program not only has enabled us to deploy 
significant resources, but it's created a formal and informal 
information sharing network. HIDTA has provided the mechanism 
for my agency to share information and resources with other 
states on a level not possible before.
    If our projections hold true and we encounter 500 labs this 
year, we will be stretched beyond our breaking point.
    We are at a critical juncture, and your continuing support 
of State and local law enforcement efforts through these 
programs is greatly appreciated and is making a difference.
    Thank you, and I would be happy to take any questions.
    [The prepared statement of Mr. Thompson follows:]

                 Prepared Statement of Kirk D. Thompson

    Members of the Committee: On behalf of Kansas Attorney General 
Carla Stovall and Director Larry Welch of the Kansas Bureau of 
Investigation (KBI), I want to thank you for the opportunity to appear 
and discuss a crisis that is facing the State of Kansas and the 
Midwest. That crisis is the illegal production, trafficking and use of 
the drug methamphetamine and the resultant violence and human suffering 
that comes in its wake.
    My testimony this morning will deal primarily with two aspects of 
the methamphetamine problem as seen from the perspective of a state 
criminal investigative agency. The first issue I will address is the 
challenge of combating a highly mobile narcotics enforcement problem 
and the second issue I will address is the challenge of providing 
support to those locations within our state that are not designated as 
HIDTA threat areas.
    Before I begin, I want to tell you briefly about my agency and 
myself. The KBI is a state criminal investigative agency that functions 
as a division of the State Attorney General's Office. Our primary 
mission is the direct support of county and municipal law enforcement 
agencies and the investigation of major criminal violations that 
involve multiple jurisdictions. A third, but absolutely critical role, 
is the delivery of specialized services to agencies that lack the 
training and resources to provide those services for themselves. The 
seizure and dismantling of clandestine methamphetamine labs is one such 
service.
    We are a relatively small organization covering a geographic area 
of 105 counties, 82,000 square miles and a population of 2.5 million. 
We have a current ratio of one narcotics enforcement agent to each of 
four counties or one agent to 91,000 citizens. My primary role is the 
oversight of our narcotics enforcement efforts.
    The KBI participates fully in the Midwest High Intensity Drug 
Trafficking Area (HIDTA) Program and I function as the state 
coordinator.
    With that background in mind, let me summarize our perspective on 
the methamphetamine problem and why its highly mobile nature is such a 
challenge. One of our senior agents explains this challenge by using 
the analogy of the Hydra, the multi-headed monster of Greek Mythology. 
It seems as though whenever we dismantle one clandestine laboratory, at 
least two more spring up in their place. We attribute this phenomena to 
three basic things; the relative ease of moving the ``cold cook'' or 
ephedrine reduction labs that we most frequently see, the relative ease 
of manufacturing methamphetamine with that process, and third, but most 
troublesome is the network of methamphetamine manufacturers.
    This network, hidden within the methamphetamine subculture, serves 
to provide traveling teachers that spread the techniques and expertise 
relating to methamphetamine manufacture. Our investigations have 
repeatedly confirmed that the people responsible for bringing the 
methamphetamine manufacturing processes to Kansas come from outside of 
our state. Frequently, the people we arrest for methamphetamine 
manufacturing are from, or are associated with, individuals residing in 
Missouri and Oklahoma. By the same token, we know that as the problem 
has spread into Kansas, we have been or will be the source of the 
traveling methamphetamine teachers to our neighbors.
    Our investigations reveal that these methamphetamine cooks come 
into our state and establish contact with our resident narcotics 
violators. They pass along the knowledge of their trade and often help 
them make the first several batches of product. They then move on and 
establish other contacts in other areas. The resident violator then 
passes that same knowledge and experience along to their associates and 
the process repeats itself. It is like a nightmarish chain letter. The 
problem is increasing geometrically just like the heads of a Hydra and, 
with our current resources, we can't keep up the pace.
    Our experiences with the mobile nature of the methamphetamine 
problem brings me to the issue of support to non-HIDTA counties. In 
Kansas, there are two agencies equipped and trained to dismantle 
methamphetamine labs, the KBI and the DEA. In 1998, the KBI responded 
to approximately 75 percent of the lab sites while DEA responded to 
approximately 25 percent. In 1997, 67 percent of the 99 labs in Kansas 
were in HIDTA counties. In 1998, 25 percent of the 189 labs in Kansas 
were in HIDTA counties, and thus far in 1999, 30 percent of the 116 
labs in Kansas have been in HIDTA counties. I might point out that at 
the current rate, Kansas will dismantle well over 500 labs this year.
    What these statistics point out is the mobile nature of the problem 
and the absolute necessity for the KBI and DEA to be able to 
aggressively, and in a timely fashion, attack the problem. That attack 
must be waged against the problem wherever it takes us. We cannot be 
confined to a geographical area to combat this type of a crisis. We 
cannot let a problem breed in a given area until it reaches the HIDTA 
designation level and then try to deal with it. As a state enforcement 
agency, we know where the problem is at any given time, and we need to 
retain the flexibility to parlay federal and state resources to achieve 
the highest degree of effectiveness.
    At this point, I want to digress and thank the federal government 
for their foresight and leadership in the area of drug enforcement by 
way of the Edward G. Byrne memorial grant program, COPS and HIDTA. 
Without those critical programs, we could not begin to deal with this 
crisis. And although we have been discussing methamphetamine today, I 
must tell you that our other drug problems have not gone away, nor have 
they been reduced in any significant way.
    The HIDTA program deserves a second mention because, not only has 
it enabled us to deploy significant resources against the 
methamphetamine threat, it has by its very nature created a formal and 
informal information sharing network. HIDTA has provided the mechanism 
for my agency to share information and resources with other states on a 
level not possible before. The alliance that has been built among drug 
enforcement agencies in the region will serve all of us well into the 
future.
    The mobile nature of the methamphetamine problem is being addressed 
more effectively because of the regional focus that HIDTA has brought 
to us all. The flexibility of the HIDTA program has allowed us to focus 
on the problems we face wherever they may lead. But despite HIDTA's 
best efforts, the resource problems remain. The methamphetamine crisis 
in Kansas keeps growing. If our projections hold true, and we encounter 
500 clandestine labs this year, we will be stretched beyond our 
breaking point.
    Our current overtime levels are excessive as a result of our 
response to the high numbers of these labs. We sometimes feel that we 
are in the ``Firehouse Mode''; that is, that all our efforts are 
directed at dismantling the labs, and few resources remain to conduct 
follow-up investigations or engage in proactive measures. We are at a 
critical juncture. Your continuing support of state and local law 
enforcement efforts through programs such as HIDTA is greatly 
appreciated and is making a difference.
    Thank you for your interest and the opportunity to speak on behalf 
of law enforcement in Kansas. I would now be happy to take any 
questions or clarify any material that I presented.
[GRAPHIC] [TIFF OMITTED] T2681A.001

[GRAPHIC] [TIFF OMITTED] T2681A.002

    Senator Ashcroft. Well, thank you very much. I'm using two 
pens because I'm marking blue stuff by what I want to ask 
questions about, and many of you have mentioned things that are 
very, very interesting to me, and I will want to come back and 
ask questions about a couple of items that you have raised 
along with items that have been raised by each of the 
presenters.
    It's my pleasure now to call upon Terri Williams, who has 
been active in working on these drug issues for quite some time 
and is the director of operations for the North Central Drug 
Taskforce. I think we first met a couple years ago when I was 
working on this very problem in Ray County. When we met, some 
of the things you told me at that time really brought home in a 
way that I just never understood before, the impact that making 
meth can have on children and people who are sort of close to 
those who are manufacturing it. You told, I think, one story 
about bathing these kids, not being able to get them to clear 
water. Their skin kept releasing these toxic chemicals as they 
would be bathed. That had a profound effect on me. I have never 
forgotten that. Maybe I should never forget that. But it's part 
of the difficulty of this very serious challenge.
    It's my pleasure to welcome the director of operations from 
the North Central Drug Taskforce, Terri Williams.
    Thank you for coming to testify.

                  STATEMENT OF TERRI WILLIAMS

    Ms. Williams. Well, thank you, Senator, for inviting me. 
I'm thrilled to be here, and I'm thrilled to get to tell that 
story again in detail, so maybe you can rest easier or at least 
keep it in mind and know the whole story.
    Three years ago this very week our taskforce received a 
call from a small school in Ray County. They said at that time 
that there was a 9-year-old boy in their office who knew how to 
cook methamphetamine. Now, we could barely pronounce it at that 
time, let alone spell it, and we decided to take that child up 
on his offer to teach us to cook methamphetamine. Now, keeping 
in mind we had been through all kinds of training. My officers 
had been to lab certification school through DEA. Our area 
covers 10 counties, we were running crazy, but we wanted to 
talk to this child. And as this child sat and began talking to 
us, he told us how the process worked, and ``Make sure and get 
the heat right here, and turn it down here, because if it gets 
too hot you may have a fire.'' This was a child who knew what 
he was talking about, because he had watched. We did apply for 
search warrants, and we served those search warrants. And when 
the leader of my squad went in, dressed in his black fatigues 
with a hood on and a very large gun, this child ran up to him 
and hugged him, like he was Santa Claus, and said, ``Where have 
you been?'' I saw a grown man cry that day, and that officer is 
now driving trucks for a living.
    I don't think that we see the whole picture and who all 
this affects. We took those children out of that house that 
night, and about 3 o'clock in the morning, the foster mother 
called me. She said, ``I keep bathing these kids, and the water 
is still green. What do I do?'' And 3 years ago we hadn't had 
the kind of training to teach us what we do with this kind of 
situation.
    That's the house that the children came out of. Since then 
this gentleman has been charged in four methamphetamine labs. 
He has not seen a court date yet. We also took from that 
residence his dog and his pet goat. Since--in that 3 years, 
since that search warrant, we have gotten calls on ``Where's my 
dog?'' and ``Where's my goat?'' He has not yet tried to retain 
custody of his children.
    I think that, in looking at the whole picture, and I agree 
with every gentleman here today and their testimony, I do the 
things that they do as well, and we are funded under the NCAP 
program and under the HIDTA initiative for our 10 counties. I 
agree with everything that they have said. I agree with the 
things that need to be looked at and their opinions. I think 
that we need to look at the entire picture and to see that 
methamphetamine is not a victimless crime. I think we need to 
know that, with every law enforcement officer sitting in this 
room today and those that work for them, they are away from 
their families sometimes 2 and 3 days at a time, working 
methamphetamine labs. Those children suffer as well. Those 
officers' wives and husbands suffer as well.
    I think it's time for those that manufacture 
methamphetamine to be held responsible and accountable. I agree 
that they need to not only pay for the cost of cleanup but to 
clean up their homes and to pay for the emotional damage that 
their children have suffered, the counseling, and whatever else 
it takes in the schools to make this go away.
    I thank you very much for letting me tell this story today, 
that stemmed from 3 years ago, in our conversation, or 2 years 
ago. I think it is something we all need to think about. I 
think it's the human side of the story. I, like these 
gentlemen, fight for funding every day. I have 10 sheriffs I'm 
responsible to. I agree that we need to fight for that money, 
but I also agree that we need to remember that a child's 
biggest problem is if they can get off that bus and get on that 
bike and ride until the sun goes down when mom calls them in 
for dinner. And I think we need to remember that a child of 9 
years old needs to learn to cook a scrambled egg, not a batch 
of methamphetamine.
    Thank you.
    Senator Ashcroft. You almost saw another grown man cry. 
It's hard for me to understand that, given the fact that I 
guess I'm just looking at a new grandson this morning here in 
Kansas City and thinking about the world in which he's coming 
into.
    It's my pleasure now to call upon the prosecutor from the 
metropolitan area here in Kansas City, Platte County. Platte 
County is one of those growth areas that is exploding with 
population and growth and is facing all the kinds of challenges 
that are attendant to law enforcement in our culture and in our 
communities. Todd Graves is being creative in getting 
individuals who represent the kinds of threat we are talking 
about behind bars. I was recently with Governor Pitaki of the 
State of New York. He said people kept telling him that he 
needed to find the root causes of crime and to deal with them. 
He said, ``We have found the root causes of crime. We have 
arrested them, we have prosecuted them, and we have put them in 
jail. And having done so, the crimes have gone down.'' So I 
guess your job, Prosecutor Graves, is to find the root causes 
of crime and to arrest them and put them in jail. Thank you for 
coming. We will be pleased to hear your testimony.

                    STATEMENT OF TODD GRAVES

    Mr. Graves. Thank you, Senator. I want to first of all 
thank you for your leadership in the HIDTA taskforce, that 
happens to be located in our county. We are a slice of Kansas 
City, a suburban area, and that is very helpful to us, and I 
know to all the prosecutors in the area.
    I had some prepared remarks that I wanted to depart from at 
this point. I was----
    Senator Ashcroft. If your remarks are in writing--and any 
of you, let me just say, any of you that want to submit more 
comprehensive remarks for the record here, we would be glad to 
have them.
    Mr. Graves. I would like to submit those. The reason I want 
to depart is I'm one of those people who actually takes the 
laws that are passed in the State of Missouri into the 
courtroom and enforces them, and I learned here this morning 
that we have one of the toughest meth laws in the United 
States, and it was held up as a model for the Federal 
Government to emulate when they were passing their legislation, 
and I think that we did make some significant gains with that 
law that was passed several years--or 2 years ago. Was it last 
year? It was last year. But I also think there are some huge 
problems with it, and it really misses the mark, and I would 
hate for the Senate to follow that as a model in many respects.
    The problems with that law are, first of all, it's directed 
at traffickers, and that's not the work-a-day statute that 
people are charged with methamphetamine. It's actually under a 
different statute, which is possess with intent to distribute. 
That is a trafficking statute. And for certain traffickers it 
did enhance the penalty a great deal. But the key is, the 
difference is, with an intent statute, we can charge someone, 
put them in prison for having meth, and proving the intent, 
that they intend to distribute that or sell it. With the 
trafficking statute, we have to catch them in the act of 
actually trafficking that meth. And that's not always easy to 
do, or before manufacturing, under certain circumstances.
    And so it's an intent versus an act standard, and I think 
you should focus more on the action rather than on the 
trafficking standard, which requires a substantial step, and 
the possibilities of defense, and there are all sorts of 
loopholes with that type of law.
    Another thing that that law did that I would hate to see 
the U.S. Senate focus on is it focused on weight, and 
trafficking statutes are weight, and the cocaine statutes and 
crack statutes are weight-based statutes, but in Missouri, in a 
meth lab, weight is not always a factor. We may find the lab, 
but this is not like the cocaine history we have, where they 
bring 10 pounds or 10 kilos in through the airport in suitcases 
and you can rate how bad a criminal they are by how much they 
have. Typically meth cookers cook just enough to sell just 
enough to buy just enough ingredients so they can use enough 
and cook enough so there are very few Mister Bigs in the meth 
trade in the area. There are a lot of Mister Medium-Sized 
players or small players. And so if we bust a lab or one of the 
sheriffs departments busts a lab and they get even a small 
amount, we can prove that they intended to distribute that, no 
matter what amount it is, that is a much easier case for us to 
make. And, as I said, that is the work-a-day statute. That is 
not the glitzy statute.
    Another problem with focusing only on the kingpins, which 
there are fewer in meth than in other areas, is that, under our 
statute, it only goes down to a 10-year minimum. It's an A 
felony, 10 to 30 or life. And if they get enough weight they 
aren't eligible for probation or parole. But we need to have a 
lot of sentences in the 2 to 10-year range, not necessarily 10 
years or drop the load at, you get into a parole system, which 
in Missouri typically, on a drug crime, if you go down the 
first time, you are going to do somewhere between 15 and 30 
percent of your sentence, if you are down for the first time, 
and that is something that the Federal Government has a leg up 
on us on, is they have done away with probation and parole. We 
have for certain crimes. But they also have a thing known as 
mandatory minimums, which several of us proposed that those be 
included in this meth law that was passed a year ago that has 
been held up as a model. Those were not included. And that is 
something like, where someone is caught and committing a crime 
with a gun, that is an armed criminal action. As a prosecutor, 
if I do not dismiss that count and I convict that person, that 
judge must sentence that person to at least 3 years real time 
in prison. And they do that. We need some of those sentences in 
meth crimes, and we need a sentence where I can get someone to 
go away for 2 years for sure, not where I'm in a 5 to 15 
statute, if I get 5, he does 1, he may get probation, he may be 
back out on the street, as has been alluded to earlier. So we 
need mandatory minimums in the work-a-day statutes.
    And, finally, that law, the treatment aspect of it, is 
something that I would ask that you consider as you are 
drafting your legislation. The treatment aspect of that law is 
such a narrow window, and we joke about being able to hit the 
bull's eye. To get into treatment, there is a long-term 
treatment program in the Missouri Department of Corrections, 
which is a very good program, but to get into it you have to 
have at least two felony convictions, and none of them violent 
convictions. So every one you go through, you are trying to get 
them put into prison, it's like the moon has to be, you know, 
full on Tuesday night, and then you get into the treatment 
program. And people have gone through that. It is a long-term 
treatment program. Long-term treatment is very important in 
these types of crimes, and that has been very helpful.
    I would be happy to answer any questions, if you want to go 
into this further, but that's the extent of my remarks on that. 
What I had intended to testify on was the fact that it's not a 
victimless crime. I have some pictures of homes where they went 
in. And the victims in meth, particularly, are children. One 
case, the officer actually kicked the door down, is here. He 
kicked the door down, and a man is kneeling beside his bed with 
a needle in his arm, and the young girl is standing there 
watching him shoot up meth while she eats scrambled eggs, and 
they hadn't had electricity in that apartment. We haven't 
figured out how they cooked the eggs in the first place. That 
was a public housing apartment. And I would also appreciate 
whoever is--I know you passed a law based on public health.
    Senator Ashcroft. Hold up the pictures just a little bit, 
if you would.
    Mr. Graves. Meth is very common in the rural and lower blue 
collar--lower middle class blue collar areas. This particular 
picture was taken on Waukomis Drive in southeastern Platte 
County, and this is the child's room,pictures of the child's 
room. And this is a picture of the refrigerator. It's interesting. He 
lost his electricity. They cut the electricity off, because all he 
wanted to do was use meth. And so he ran a cord out the window, down 
the hill, and plugged it into the side of the apartment building. But 
he didn't plug in the refrigerator. He plugged in the stereo and the 
TV. And this is a picture in the more rural part of the county. This is 
the house that people were actually living in, cooking meth in. These 
are some of the guns and things that we found in the house.
    Senator Ashcroft. Is that money down in the lower right-
hand corner?
    Mr. Graves. That is money, drug money. There is an 8-month 
old----
    Senator Ashcroft. Did you guys confiscate that money?
    Mr. Graves. It was confiscated by the sheriff's department. 
I'm not sure where it ended up.
    Senator Ashcroft. Well, now, you need to be sure where it 
ended up.
    Mr. Graves. I know it ended up at the police department.
    Senator Ashcroft. That is one of the requirements.
    Mr. Graves. This--there were three----
    Senator Ashcroft. Would you make that available, if you 
would. We are going to take a little break between panels, so 
that people could take a look at that?
    Mr. Graves. OK; that is all I have. Thank you.
    [The prepared statement of Mr. Graves follows:]

                   Prepared Statement of Todd Graves

    People often say that drug crimes are ``victimless'' crimes. In one 
sense, this may be true. In possession, sale and manufacturing cases 
there is no ``victim'' to testify in court. In another very real sense, 
however, the growing methamphetamine problem claims new victims every 
day.
    I'm not going to be vague about the societal implications of this 
drug or its impact on our youth. I don't need to be. We, in Kansas 
City, see and feel the effects of methamphetamine daily. We see it in 
very tangible situations.
    We see it in convenience store robberies committed by users looking 
for cash to score a ``quick fix.'' We see it in homes being burglarized 
and property being pawned, again for money to buy meth. We see it in 
twenty-year-olds who are murdered because they irritated the wrong 
members of a group of meth users. And we see it in children living in 
squalor because their father is too addicted and high to care that 
there is no food or electricity in the house.
    I can recount two specific cases (out of many) handled by our 
office over the past few years, which are the most basic illustrations 
of the role that methamphetamine is playing in this city.
    In October of 1996, hunters near Parkville, a suburb of Kansas 
City, discovered the rotting remains of a twenty-three year old man. He 
had been shot to death and then, apparently, the body was burned. The 
victim was identified only after an artist recreated a tattoo on the 
arm of the corpse and a drawing of the tattoo was aired on the local 
news. He was the son of a doctor and a state probation officer.
    The group of people with whom the victim associated before his 
murder was largely involved in the use of methamphetamine. They smoked 
it. They snorted it. They shot up intravenously. These were young men 
and women, not long out of high school, in their early to mid-twenties, 
living in suburban Kansas City. At some point, this gang of meth users 
began associating with a 42-year-old ex-con. They thought of themselves 
as real renegades. The convict had been in prison for many years 
previously due to armed robbery and a prison homicide. These young 
people, for whatever warped reason, looked up to him. I believe they 
looked up to him because he had killed someone in prison.
    When one of the young women in the group got fed up with the 
victim, who had been ``crashing'' at her apartment, the con and another 
young woman took it upon themselves to take care of the situation. The 
victim was considered somewhat of an annoyance amongst the rest of the 
group. The con shot the victim, then drove him to a field outside of 
Parkville, shot him several more times and left him to rot.
    Methamphetamines consumed the lives of these people. They did 
whatever they needed to do in order to stay high. The addiction and 
physical effects of the drug took their toll, by warping the 
perspectives of these people to the point that killing someone, someone 
that they even considered their friend, was okay. All they wanted to 
do, their entire life focus, was cook and score meth. The victim's 
involvement in this group of users and the meth culture got him killed. 
For no reason other than someone got tired of him.
    The second case that I want to tell you about involves the most 
innocent victims of this methamphetamine epidemic. The children of 
methamphetamine abusers are victimized merely by witnessing the 
degeneration of their parents. Their minds are shaped and educated in 
an environment dedicated to maintaining a high. Not only is there a 
mental and emotional component to this neglect but also there is often 
a real physical threat as well.
    In the spring of 1997, the Platte County Sheriff's Department 
received information that a thirty-three year old man was manufacturing 
and selling meth out of his apartment in suburban Kansas City. They 
eventually got a search warrant for this apartment.
    When the officers entered the apartment to execute the warrant, 
they found the defendant kneeling beside his bed, preparing to shoot up 
with methamphetamine. His four-year-old daughter was standing directly 
beside him. Also in the apartment were the defendant's two other 
children, ages six and seven. The only other adult in the apartment was 
a friend of the defendant's who police later discovered was a convicted 
child molester.
    There was no electricity in the apartment. The defendant had run an 
extension cord into the hallway and plugged it into an outlet there. 
The only things plugged into the extension cord were the television, 
VCR and stereo.
    The apartment was filthy, with bugs crawling everywhere. The inside 
of the refrigerator (which wasn't operating because of the fact that 
there was no electricity) was covered in maggots and flies, due to 
decomposing meat. This third floor apartment had no window screens to 
keep the children from falling out. There was no food that appeared 
edible in the residence.
    He admitted to using meth on a daily basis from age 25 to the day 
he was arrested. He stated that he found himself using larger and 
larger amounts of the drug to achieve the same level of ``high''.
    Methamphetamine was more important to this man than food. It was 
more important than electricity. It was more important than a four-
year-old, a six-year-old and a seven-year-old. Unfortunately that scene 
of absolute squalor and neglected children is common with meth users.
    So when people try to say that drug offenses are victimless crimes, 
they're hideously mistaken. In fact, that statement couldn't be further 
from the truth.

    Senator Ashcroft. Well, thank you. Boy, I don't know where 
to start. I appreciate the governor saying that he thought that 
there were areas of the State that needed to have the benefit 
of HIDTA that don't have it, and this is a tension in this 
Federal program, and there are--I think, Sheriff Starke, you 
sort of indicated that you don't get some of the benefits you 
would like to get. Are you covered by HIDTA?
    Mr. Starke. No, sir.
    Senator Ashcroft. You are not.
    Mr. Starke. No.
    Senator Ashcroft. Do you all have recommendations about 
that general point, the need for HIDTA? And Director Thompson, 
you said you can't wait until something becomes HIDTA eligible, 
because that almost signals that your war has been lost in that 
area.
    Mr. Thompson. That's correct. One of the problems----
    Mr. Ashcroft. What should the Federal Government be doing 
here in regard to HIDTA? We get special money because it's high 
intensity, and then we see needs in other areas, and they are 
not high intensity yet. It seems like we have to wait until we 
lose the battle before we send the troops in there.
    Mr. Thompson. We have used the approach, and we have 
received the flexibility to do so, by our laboratory-trained 
people. We are able to send them wherever we need to in the 
state. If there is any kind of a----
    Senator Ashcroft. For the HIDTA lab services, you can send 
them anywhere in the State?
    Mr. Thompson. We have been doing that as long as we can 
demonstrate some type of a nexus to the HIDTA counties.
    Senator Ashcroft. Of course, there is nexus everywhere 
here. You called the Hydra for HIDTA.
    Mr. Thompson. For the most part, that is what we are 
finding. There is a subculture out there that is connected 
together, and at least we are trying to take our resources that 
we are receiving and take them to the site that is needed. And 
it has been fairly successful for us.
    Senator Ashcroft. Director Barton, you said clandestine 
manufacturers concentrated in Missouri, Kansas, and Iowa.
    Mr. Barton. Yes.
    Senator Ashcroft. Are they cartel-sourced meth----
    Mr. Barton. At the present time the most serious problem in 
Nebraska, South Dakota, and North Dakota appears to be 
importation issues rather than clandestine manufacture, but we 
have seen that begin to change in Iowa. I will give you an 
example. The Iowa Division of Narcotics Enforcement, State 
police narcotics agency in Iowa, for calendar year 1998, they 
seized 302 lab--excuse me, 320 labs, which was over a 400 
percent increase over 1997. So the movement of labs is of 
course a significant issue for HIDTA agencies.
    Senator Ashcroft. It looked like Kansas is anticipating 
between 1997 and 1999 a 500 percent increase. Do you think 
there will be 500 this year? And there were 99 in 1997.
    Mr. Thompson. We went from 189 last year, and we are 
already at 125 as of yesterday, and at that rate we will be 
well over 500 by the end of this calendar year.
    Senator Ashcroft. I know Sheriff Pierpont, 60 labs in the 
first 3 months of this year and not ``only,'' but 72 labs in 
all of last year.
    Mr. Pierpont. That is exactly right.
    Senator Ashcroft. So is it possible that HIDTA then can 
serve--Kansas seems to be operating on a principle of being 
able to extend some HIDTA services beyond the HIDTA counties. 
Is that----
    Mr. Barton. One of the strengths of the HIDTA program, if I 
might, is the ability to be flexible regionally, in that we 
have the executive committee of the--HIDTA has some 
flexibility, and there are two nexuses that we operate on.
    No. 1, for most of the money, the first nexus is 
methamphetamine involvement. The second nexus is a tie or 
relationship to a high-intensity area. The idea of the HIDTA 
program is to focus Federal, State, and local resources on the 
most critical area, not making light of anyone else's problems, 
obviously, because we all have problems, but it attempts to 
provide some focus using funds, Federal funds, as a mechanism 
to increase that focus. HIDTA program is not a grant program, 
per se, but it is a funding mechanism to provide that focus. 
The flexibility of the executive committee has attempted to 
expand our counties for fiscal year 1999, and that process--we 
had the input from all the governors' offices. Governor 
Carnahan's office was involved in helping us do that. And so we 
see that as a potential each and every year as we do 
assessment.
    Senator Ashcroft. I guess I'm a little bit charmed about 
the idea that in Kansas they have 100 counties--is that right?
    Mr. Thompson. One-hundred and five, yes.
    Senator Ashcroft. One-hundred and five, well, we have you 
beat by a hundred and some, nine counties, I guess. We must be 
all the top States in the country with number of counties. But 
be that as it may, you have eight counties that are part of 
HIDTA now and six that are nominated for HIDTA inclusion, but 
you are providing some of those services to counties like 
Sheriff Starke's county that doesn't have any--either it's not 
nominated, and it's not included, but it's still getting some 
of the services. Missouri has 10 counties that are in it now 
and another 7 slated to come on. Would it be possible in 
Missouri for Missouri to operate flexibly, to provide some 
services to outside--so that--we don't need to change the law 
to make that possible?
    Mr. Barton. No, sir.
    Senator Ashcroft. OK, because I----
    Mr. Barton. That is a current--the Missouri highway patrol 
and Missouri DPS are working outside--or using that same nexus 
issue we just discussed.
    Senator Ashcroft. Oh, they are? So they are--can provide 
some assistance to Sheriff Starke?
    Mr. Barton. If those two nexuses are--are met, yes, sir.
    Mr. Pierpont. The taskforce can be formed, Senator, by--
like we have seven counties in southwest Missouri, are in 
common, which is--has people from the sheriffs' offices, 
Springfield Police Department, NHTSA also has a supervisor--
that unit is a Missouri highway patrolman. And we have been 
very successful with that and also----
    Senator Ashcroft. Does your unit require that--I think the 
sheriff is talking about Pettis County having to give away an 
officer and not being assured that he could use the officer to 
direct his--does your--does the cooperative effort that you 
have require that you give up an officerfull time or lose some 
level of control over the officer?
    Mr. Pierpont. He is assigned to the common taskforce, and 
consequently we do pay that salary, but the car that he drives 
is furnished by the taskforce.
    Senator Ashcroft. By the grant and----
    Mr. Pierpont. Yes, that's correct.
    Senator Ashcroft. Well, you know, it seems to me that you 
mentioned that we have to make sure that we can--as you turn up 
the heat on the meth, in some areas, it appears to be that it 
migrates, and if it migrates to more rural areas, I think we 
have to find ways to try and address that.
    Ms. Williams, that story is--you are right, it is an 
amazing thing. This individual has yet to be convicted or tried 
for these offenses?
    Ms. Williams. None of my officers involved with any of the 
four lab cases have been subpoenaed to court as of yet for any 
reason.
    Senator Ashcroft. Boy, that is----
    Ms. Williams. And there have been no pleadings, so----
    Senator Ashcroft. Has he been charged? Do you know?
    Ms. Williams. He was charged, as far as I know, and this 
has been ongoing--the house eventually he set on fire to cover 
a lab, and so the house no longer exists. So he's been busy.
    I would like to make a comment if I could, real quick, 
about the HIDTA situation----
    Senator Ashcroft. Yes.
    Ms. Williams. Because we are involved in HIDTA, and like I 
said, we surround 10 counties, but when any outside agency 
calls with a problem, similar, that fits our HIDTA situation, 
we will absolutely assist those people. So we are setting up 
something different, I think, than what the sheriff said about 
COMET, but we are able to branch out a bit as well, so----
    Senator Ashcroft. I think it's good if these things have 
different character and nature in different areas so they serve 
the area the way that the area needs to be served. The last 
thing we want to do as a Federal Government is sort of mandate 
a uniformity on everybody that keeps you from being able to get 
what you are needing.
    Sheriff Starke said there is a policy that keeps the 
highway patrol out of most of the efforts to take down the lab. 
Is that a uniform observation that you have and is that true in 
your area?
    Ms. Williams. Yes.
    Senator Ashcroft. It is? Would that be true in your area?
    Mr. Pierpont. In our area, we also have HIDTA. The DEA has 
been very helpful in coming down. Like this morning we took 
down a lab last night, and they are always very efficient and 
very cooperative to come out and help us. But we are a 
metropolitan area. I realize that.
    Senator Ashcroft. Does the highway patrol get involved in 
any of your lab----
    Mr. Pierpont. They have, yes, they have.
    Senator Ashcroft. What is the word you use? Lab busts? I 
mean, that sounds funny. Lab takedowns? What is the right word 
I should be using? I'm always struggling.
    Mr. Thompson. We use the term ``seizures.''
    Senator Ashcroft. Lab seizures.
    Mr. Thompson. We are taking the evidence, seizing the 
evidence.
    Senator Ashcroft. I think that is a good word, and I'm 
going to try and remember to use that word.
    Is there anything that any of you, having heard this 
discussion--that you would like to add, thinking--detecting 
from my questions, or watching me scramble to write notes, that 
you think I might have missed on this?
    Mr. Pierpont. I don't know how we control this, Senator, 
but today, the one that we had this morning in western Greene 
County, that particular area, neighborhood, has had at least 15 
labs busted there in the last year and a half. These people 
tend to, as all these experts can say, also, go back--they are 
just kind of like--I don't know how to explain it, but they go 
back to their--to where their environment is, where they know 
they can cook, they know they are going to be busted, but we 
can't get the message to them that we are going to keep taking 
then down and down and down. But it's a major problem, because 
as she mentioned about the children, and I think I mentioned to 
you about a year ago about the raid that we had on a lab, and 
the two kids were glad to see the officers because Dad and Mom 
were cooking meth in the microwave and the food was beginning 
to taste bad. And those things happen quite frequently.
    Senator Ashcroft. Sheriff? Anything else you would like to 
add?
    Mr. Starke. Not that I can think of right now.
    Senator Ashcroft. Can you think of any way that we can 
adjust this program--I'm concerned about people with real 
problems like you have. The 31 meth labs in 2 years is 
significant. If every county in the State had 31 meth labs in 2 
years and there are 114 counties, you are talking about 13 or 
14 hundred meth labs which is higher than the average.
    One last figure. He talked about one drug agent per 91,000 
people in Kansas. Does anybody know what the figure is in the 
State of Missouri?
    Mr. Pierpont. I would be afraid to know.
    Senator Ashcroft. Well, I don't know, either. I'm here to 
learn, and I just wondered if we had some--anything like that.
    Let me express my appreciation to each of you for coming. 
You have challenged me to try and find ways to make our efforts 
more effective at the Federal level, and nothing that we can 
ever do will ever compare to the kind of commitment that you 
make, and I appreciate your candor. It's not easy to say where 
you are having problems and not easy to indicate that--where 
you are not getting support, you are not getting it, and where 
it--you know, I--but we can't work to correct things unless we 
have good information, and your being here is a great service 
to me, and I thank you on behalf of the Senate Judiciary 
Committee, chairman of the committee, Senator Hatch, and the 
chairman of the Subcommittee on Criminal Law Oversight, Senator 
Strom Thurmond. Thank you very much. And we will take about 4 
minutes to just rearrange ourselves and call the next panel.
    Thank you very much.
    Senator Ashcroft. If we could come back to order, I want to 
thank you all for being here. We have a little less than an 
hour, but that should give us time for you all to make 5-minute 
comments and then provide some conversation back and forth. I 
hope the second hour of this endeavor is as productive in terms 
of my own experience as the first hour because I have learned 
many new things. I have to go back and check right away, for 
instance, as to whether or not we have any kind of direction to 
the judges to require participation in the cleanup fees. I 
thought that was a good idea--you guys take major hits, you law 
enforcement officials, in terms of what it costs you to clean 
up these things. And if there are resources that could be 
devoted to that, I don't want to discuss the first panel again. 
I want to give you your chance. But this is a very productive 
enterprise for me in helping me tune my consciousness to what 
is happening at ground zero.
    So first, without substantial additional talking from the 
Senator, the commander of the Kansas City Metro Meth Taskforce, 
Barry Mayer, who, with his troops, are down in the trenches, 
where the battle is being waged here. And I thank you for 
coming, and let me get my note-taking apparatus here, and 
please proceed.

 PANEL CONSISTING OF BARRY MAYER, COMMANDER, KANSAS CITY METRO 
 METHAMPHETAMINE TASKFORCE; JOSEPH CORCORAN, DRUG ENFORCEMENT 
  AGENCY; GARY HOWELL, DIRECTOR, KCPD CRIME LAB; TERESA LOAR, 
      COUNCILWOMAN, FIRST DISTRICT, KANSAS CITY, MO; JOHN 
STUFFLEBEAN, DIRECTOR, OFFICE OF ENVIRONMENTAL MANAGEMENT; AND 
           CHARLES HEISS, SHERIFF, JOHNSON COUNTY, MO

                    STATEMENT OF BARRY MAYER

    Mr. Mayer. Thank you. My name is Barry Mayer. I'm a captain 
with the Kansas City, MO, Police Department. I'm currently 
assigned to the Midwest HIDTA's Kansas City metropolitan 
methamphetamine enforcement initiative taskforce. We are 
commonly referred as the Metro Meth Taskforce.
    It didn't take long for local law enforcement and Federal 
agencies working the methamphetamine problem in the Kansas City 
metropolitan area to discover that the war against meth was a 
different kind of drug war. Meth and the threat of meth labs in 
our neighborhoods and in our rural areas resulted in fires, 
explosions, child endangerments, and of course the 
contamination risks. These issues have brought local, State, 
and Federal agencies together. We all realized that we had to 
do something besides just being available to react to the 
discovery of these labs. We needed to go proactive.
    Midwest HIDTA made this possible. With their funding and 
assistance, local police agencies from Kansas City, Missouri, 
Independence, Kansas City, Kansas, Lee's Summit, Blue Springs, 
county organizations from the Jackson County Drug Taskforce, 
Jackson County prosecutor's office, Platte County Sheriff's 
Department, as well as Federal agencies, like DEA, FBI, U.S. 
Marshal Service, ATF, and U.S. Secret Service, can now work in 
an atmosphere of communication, coordination, and cooperation, 
all in a collocated setting, and create a work force capable of 
assisting in processing meth labs and more importantly capable 
of proactively discovering meth labs and interrupting that 
criminal enterprise.
    Working as a multijurisdictional enforcement group, our 
taskforce members can now move freely across jurisdictional 
boundaries we previously had to respect. Now instead of waiting 
in the office for the report of a lab, we are more capable of 
following up on tips from conscientious citizens and leads 
developed from lab investigations to locate more labs and 
arrest more offenders. In addition, we haven't forgotten the 
increased presence of the Mexican meth in the community. While 
that threat is strongest in Kansas City, KS, its spread 
throughout our metro area and cannot be ignored. Consequently, 
a taskforce member from the Kansas City, KS, Police Department 
is assigned to DEA.
    I personally have been to nearly 200 meth labs in the past 
couple years. I have made my own observations. A region should 
not ignore the problem. We should not sit back and wait for a 
lab to explode and a house to catch fire. I'm convinced that 
any taskforce designed to fight the meth problem must be able 
to not only respond to a lab and conduct an investigation but 
just as importantly it must conduct proactive investigations of 
those suspected of cooking meth. Due to the addictive nature of 
this drug we have shown that a released meth cook awaiting 
trial is very likely to continue to attempt to manufacture. 
Consequently, I believe it's law enforcement's responsibility 
to react to that by aggressively targeting known offenders.
    Another important observation that this taskforce has made 
is that we are not dealing locally with large organizations, 
like drug cartels, with distinct rank and file. Instead we are 
dealing with smaller groups who all know each other and are 
difficult to infiltrate. When a cook from the group goes to 
prison, another in the group may learn to cook. The group will 
typically use most of the dope that they manufacture, saving 
only a small portion for sale, so that they can fund their next 
cook.
    As a result of aggressive police tactics, we are seeing a 
displacement of the problem. It is not unusual to find a 
Jackson County meth cook in one of the other counties we are 
serving, such as Clay, Platte, Cass, Wyandotte, or Johnson 
County. Recently a known Independence Missouri meth cook was 
convicted of manufacturing in Hickory County, which as you know 
is near Springfield. Besides the needs for new legislation, 
continued aggressive prosecution, laboratory enhancements, 
funding for more equipment, research on the post-contamination 
issues, and more attention to reducing the availability of the 
precursors, there is a critical need to improve the 
opportunities for officers to receive clan lab certification 
training. There are hundreds of officers eager to join the 
fight, but despite DEA's commendable efforts these officers' 
training continues to be delayed. I believe more funding is 
needed in this area to produce more qualified instructors and 
more training opportunities.
    In closing, I would like to conclude by expressing my 
appreciation for the attention of this committee to this 
crisis. I would further like to thank all of my constituents 
here today for their attendance and support.
    Senator Ashcroft. One of the things you said provoked me to 
think about a question I want to ask you to think about and 
answer.
    Mr. Mayer. Yes, sir.
    Senator Ashcroft. This idea about people awaiting trial, so 
severely addicted that they just can't understand.
    Mr. Mayer. That is a key.
    Senator Ashcroft. I would like for you to be prepared to 
comment a little bit more on that.
    Mr. Mayer. Absolutely.
    Senator Ashcroft. It's a pleasure now to call upon Joseph 
Corcoran, who is the special agent in charge of the DEA. I had 
the privilege of meeting Joe a couple years ago when I had the 
opportunity to conduct a Senate hearing in St. Louis on violent 
juvenile crime, and Senator Sessions I believe was with me at 
that time in St. Louis. He helped provide one of the first 
presentations to the chairman of the Juvenile Justice 
Subcommittee on the judiciary, and I appreciated that. I'm 
pleased to welcome you here today. So, as a special agent in 
charge of the Drug Enforcement Agency, I would ask you to help 
us with whatever information you can bring.

                  STATEMENT OF JOSEPH CORCORAN

    Mr. Corcoran. Sure. I appreciate the opportunity to appear 
before this committee today to discuss methamphetamine traffic 
in the Midwest. As a special agent in charge of DEA St. Louis 
division, I'm responsible for 17 offices in six States with 300 
employees.
    In my 28 years of narcotic law enforcement experience, I 
have observed methamphetamine to ravage human beings quicker 
with longer-lasting effects than any other illicit drug I have 
encountered.
    The Midwest as well as a growing portion of the United 
States currently faces a two-faceted methamphetamine challenge.
    First, organized groups from the West Coast and Mexico who 
produce and distribute methamphetamine throughout the United 
States; and, second, local illicit laboratories.
    There are thousands of clandestine labs being seized 
throughout the country, the majority of which are producing 
smaller quantities of meth. Organized West Coast groups are 
responsible for the bulk of the methamphetamine being 
distributed in this country, including the Midwest.
    In the Midwest, unique problems inherent to clandestine 
meth lab operations require a significant amount of law 
enforcement manhours, training, and equipment. These problems 
include safety issues as well as environmental concerns.
    These laboratories are highly explosive and very hazardous 
to both law enforcement and the public. They result in grave 
environmental damage, and perhaps the least significant is the 
actual amount of drugs they produce.
    What troubles me is the resources put forth to investigate 
these clan labs necessarily diminishes those resources left 
available to investigate--to investigate the greater supply 
challenge posed by the organized West Coast groups as well as 
all other drug-type cases as well.
    For the purpose of this hearing, however, I will now 
address the concerns regarding clan lab situations.
    One, need for crime labs to adequately and timely analyze 
methamphetamine. When the seize of clan labs began to rapidly 
increase in the mid-1990's, forensic laboratories across the 
country were unable to handle the sudden volume of exhibits. As 
a result, prosecutors at times were hesitant to file timely 
criminal complaints against defendants for fear that the 
evidence would not be analyzed in time for court proceedings. 
This combination of judicial mandates and the necessity for 
comprehensive lab analyses has resulted in a significant rate 
of recidivism as laboratory operators relocate and resume their 
operations pending arrest.
    This was the case for State laboratories in the Midwest and 
for DEA. The DEA North Central Lab in Chicago, IL, is the 
primary forensic lab for exhibits seized by the St. Louis 
division.
    Clan lab cleanup challenges. For clan labs to which DEA 
personnel respond, samples are taken for evidentiary purposes, 
and the remaining chemicals and hazardous wastes are disposed 
of by hazardous waste contractors funded by DEA. For those 
other labs where a State or local department responds, DEA 
contacts and arranges for the same hazardous waste contractor 
to respond to the site and remove the chemicals. Funding for 
this is provided by the COPS funding, and it's available to all 
State agencies upon request. We send that protocol to every 
agency.
    The average cost for the disposal of hazardous chemicals 
from a lab site by a hazardous waste contractor is 
approximately $2,500.
    Last, I will discuss training. DEA has assumed a leadership 
role in the training of State and local law enforcement 
officers, emergency medical technicians and firefighters in the 
seizure and dismantling of clandestine laboratories.
    In the past 2 years, DEA has conducted 46 clandestine lab 
schools in which 1,784 officers received OSHA certification to 
process clan labs along with the necessary $2,000 of safety 
equipment. In the St. Louis division, there are now over 145 
additional police officers on a waiting list to receive this 
training. In DEA's new training facility in Quantico, we intend 
to host 23 clan lab certification schools starting in April, 
when we open a new facility, through September 2000. Five of 
these schools will be conducted in a satellite facility in 
Overland Park, KS, offering training to 200 officers.
    The DEA office of training is also working to develop a 
clandestine laboratory national training plan, called Train the 
Trainer Program. Through this plan, approximately four officers 
from each State will be taught how to instruct portions of the 
OSHA-mandated basic clan lab certification school, who will 
then be able to return to the respective States and departments 
and train other officers in the handling of clandestine 
laboratories. The curriculum for the Train the Trainer Program 
will meet and exceed requirements established by OSHA and the 
Code of Federal Regulations.
    Law enforcement officers who work clandestine laboratories 
must be recertified each year according to these OSHA 
guidelines. There is currently no master registry which 
identifies the certified office in each State or calls for 
recertification. DEA is currently working to establish such a 
system.
    Clandestine laboratory awareness seminars are also of vital 
importance to law enforcement officers and safety officials who 
are not assigned full time to drug law enforcement but may 
encounter clan labs in their normal enforcement efforts as well 
as the general public.
    Chemical Time Bombs, a video produced by DEA, has been 
widely distributed throughout the United States with more than 
700 copies having been distributed to local, State, and county 
police departments. In the State of Missouri alone, we sent a 
cover letter and a copy of this tape to every sheriff's office 
and police department in the State.
    Finally, I would like to comment about the legislation and 
the recidivism issue again. These clan labs many times have no 
products. There is a--which then leaves a decrease in zone of 
legislation. You have to think of it like burglary tools. When 
you have----
    Senator Ashcroft. You are sort of going down the line that 
Todd Graves went down on the first panel.
    Mr. Corcoran. Right. We have the necessary components 
there. However, with no product, there has to be some way to 
get these people into jail. And with professional law 
enforcement testifying that, yes, in fact, this was the 
capability for a clan lab, I think that will change that.
    Thank you, sir.
    [The prepared statement of Mr. Corcoran follows:]

                 Prepared Statement of Joseph Corcoran

    I appreciate the opportunity to appear before this committee today 
to discuss methamphetamine trafficking in the Midwest. As the Special 
Agent in Charge of the DEA St. Louis Division, I am responsible for 17 
offices in six states, with over three hundred employees.
    In my 28 years of narcotics law enforcement experience, I have 
observed methamphetamine to ravage human beings quicker, with longer 
lasting effects than any other illicit drug I have encountered.
    The Midwest, as well as a growing portion of the United States, 
currently faces a two-faceted methamphetamine challenge:
    I. Organized groups, from the west coast and Mexico, who produce 
and distribute methamphetamine throughout the United States, and;
    II. Local illicit laboratories.
    There are thousands of clandestine laboratories being seized 
throughout the country, the majority of which are not producing large 
quantities of methamphetamine (an average of 12 grams per lab). 
Organized west coast groups are responsible for the bulk of the 
methamphetamine being distributed in this country, including the 
Midwest.
    In the Midwest, unique problems inherent to local clandestine 
methamphetamine laboratory enforcement operations, require a 
significant amount of law enforcement effort, training and equipment. 
These problems include safety issues as well as environmental concerns.

    a. Laboratories are highly explosive and very hazardous, to both 
law enforcement and the public;
    b. They result in grave environmental damage;
    c. And perhaps the least significant is the amount of drugs that 
these local labs produce.

    What troubles me is the resources put forth to investigate these 
illicit local laboratories necessarily diminish the resources available 
to investigate the greater supply challenge posed by the organized west 
coast groups.
    For the purpose of this hearing; however, I will now address some 
of the concern regarding the clandestine laboratory situation.
      1. the need for crime labs to adequately and timely analyze 
                            methamphetamine
    When the seizures of clandestine laboratories began to rapidly 
increase in the mid-nineties, forensic laboratories across the country 
were unable to handle the sudden volume of exhibits. As a result, 
prosecutors were hesitant at times to file criminal complaints against 
defendants, for fear that the evidence would not be analyzed in time 
for court proceedings. This combination of judicial mandates and the 
necessity for comprehensive laboratory analyses has resulted in a 
significant rate of recidivism as laboratory operators relocate and 
resume their operations pending their arrest.
    This was the case for the state laboratories in the Midwest and for 
DEA. The DEA, North Central Laboratory in Chicago, Illinois is the 
primary forensic lab for exhibits seized by St. Louis Division.
    The DEA North Central Laboratory is analyzing exhibits seized from 
clandestine labs in 30-60 days. Cases that require quicker analyses, 
primarily for judicial proceedings, are expedited upon request. A 
satellite DEA laboratory has also been established in Kansas City, 
Missouri and two rotating DEA chemists are at the site on a full-time 
basis. In the Kansas City facility, exhibits can be processed in three 
weeks to a month. These chemists are Occupational Safety and Health 
Administration (OSHA) certified and available to respond to clandestine 
lab sites.
                 2. clandestine lab clean-up challenges
    For clandestine laboratories, to which DEA personnel respond, 
samples are taken for evidentiary purposes and the remaining chemicals/
hazardous waste are disposed of by hazardous waste contractors, funded 
by DEA. For those other labs where a state or local department 
responds, DEA contacts and arranges for the same hazardous waste 
company to respond to the site and remove the hazardous chemicals, 
through funding provided by the Community Oriented Policing Services 
(COPS) program, for this purpose.
    The DEA hazardous waste contractor is allowed 15 minutes to return 
a call to DEA regarding the need for services. The contractor then has 
one hour to prepare its equipment and personnel and one hour for every 
50 miles that the contractor needs to travel to get to the clandestine 
lab site.
    (Note: The average cost for the disposal of hazardous chemicals 
from a laboratory site by a hazardous waste contractor is approximately 
$2,500. The annual cost for clandestine laboratory hazardous waste 
removal nationwide is presented as an attachment).
             3. the demand for lab technicians in the field
    As stated before, DEA has two chemists from the DEA, Chicago 
laboratory colocated at the Kansas City Regional Crime Laboratory. They 
are available to respond with law enforcement to the actual lab sites. 
This is a special DEA initiative in response to the burgeoning illicit 
laboratory problem in this area of the country.
               4. other issues--clandestine lab training
    DEA has assumed a leadership role in the training of state and 
local law enforcement officers, emergency medical technicians and 
firefighters, in the seizure and dismantling of clandestine 
laboratories.
    In the past two years, DEA has conducted 46 clandestine lab schools 
in which 1,784 officers received OSHA certification to process 
clandestine labs, along with $2,000 of necessary equipment. In the St. 
Louis Division there are now over 145 additional police officers 
waiting to receive the training. DEA, Quantico, Virginia intends to 
host twenty-three clandestine lab certification schools from April 1999 
through September 2000. Five of these schools will be conducted in 
Overland Park, Kansas, offering training to 200 officers.
    The DEA Office of Training is also working to develop a Clandestine 
Laboratory National Training Plan, called the Train the Trainer 
Program. Through this plan, approximately officers from each state will 
be taught how to instruct portions of the OSHA mandated Basic 
Clandestine Lab Certificate School. After successful completion of the 
six-week intensive course, to be held at Quantico, Virginia, the 
candidates will be certified trainers and hazardous waste technicians. 
They will then be able to return to their respective states/departments 
and train other officers in the handling of clandestine labs. The 
curriculum for the Train the Trainer Program will meet and exceed the 
requirements established by OSHA and the Code of Federal Regulations.
    Law enforcement officers, who work clandestine labs, must be 
recertified each year according to OSHA guidelines. There is currently 
no master registry that identifies the certified officers in each state 
or a call-up system for recertification. DEA is currently working to 
establish such a system.
    Clandestine lab awareness seminars are also of vital importance to 
law enforcement officers who are not assigned full-time to drug law 
enforcement but may encounter clandestine labs, as well as the general 
public. ``Chemical Time Bombs,'' a video produced by DEA, has been 
widely distributed throughout the United States, with more than 700 
copies of the videos having been distributed to state, county, and 
local police departments throughout the Midwest.
                    drug enforcement administration

 Protocol for Utilization of COPS Funding by State/Local Agencies for 
                the Cleanup of Clandestine Laboratories

    1. The special Agent in Charge (SAC) in each field division will 
identify Points of Contact (POCs) within the field division. Alternates 
may also be listed. Call by State/Local agencies requesting laboratory 
cleanup shall be directed to the POC on duty.
    2. The POC will determine if DEA will be actively involved in the 
investigation. If so, the POC will proceed in the normal investigative 
manner.
    3. IF DEA is not to be actively involved, or if DOJ requirements 
are not met for the use of the Asset Forfeiture Fund (AFF), then the 
Community Oriented Policing Services (COPS) Program funding may be 
used.
    4. The POC will obtain the next available State/Local Cleanup ID 
number (an ``S'' Number) from a logbook maintained by the POC. The 
number will resemble a DEA case number with the first character 
following the fiscal year being an ``S'' (e.g., IE-99-S001).
    5. The POC will complete Part 2 of the National Clandestine 
Laboratory Cleanup Program (NCLCP) form and fax it, along with a blank 
National Clandestine Lab Seizure form (EPIC seizure form) to the 
requesting State/Local agency. The POC will advise the State/Local 
Agency of the Occupational Safety and Health Administration (OSHA) 
requirements regarding certification of officers present at the 
clandestine laboratory site which are enumerated in the introduction to 
the NCLCP form.
    6. The State/Local agency will complete Part I of the NCLCP form 
and fax it to the POC.
    7. The POC will dispatch the DEA hazardous waste cleanup contractor 
providing them with the ``S'' Number.
    8. The POC will contact the State/Local agency to confirm dispatch 
of the contractor and the anticipated time of arrival of the contractor 
at the clandestine laboratory site.
    9. The POC will direct the State/Local agency to complete Part 3 of 
the form, and the EPIC National Clandestine Laboratory Seizure form, 
and to submit the forms within 24 hours to the POC and to EPIC.
    10. The POC will be responsible for contacting the DEA/HOZ 
Hazardous Waste Disposal Unit (SFSH) within 48 hours of approving the 
COPS cleanup and providing ``S'' number for the cleanup to SFSH. SFSH 
will provide the POC with a COPS appropriation number.
    11. The POC will provide the contractor with the appropriation 
number by the next business day.
                            5. other issues
1. How many requests are you getting for lab analysis?
    The DEA Chicago laboratory processed 209 exhibits from clandestine 
lab seizures in the six states in fiscal year 1998 from the DEA St. 
Louis Division.
2. What is the average turn around time on analysis? Where are 
        materials sent for analysis?
    In cases where DEA personnel are involved, a collective decision is 
made among the involved law enforcement agencies as to whether the 
violator will be charged on federal or state charges and the evidence 
is then submitted to the appropriate forensic laboratory. For exhibits 
sent to DEA at the Kansas City Regional Crime Lab, they are analyzed in 
three weeks to a month, depending on the number of exhibits seized from 
each site. Exhibits send to the DEA, Chicago laboratory are currently 
being processed in one to two months. All requests to expedite the 
analysis are handled accordingly.
    I will defer to Gary Howell, for information related to processing 
on the local level.
3. How much time do lab personnel spend in the field on site? Does this 
        cut into time for lab analysis?
    DEA chemists spend approximately three hours per lab at the site, 
in addition to preparation and travel time. Yes, responding to the site 
does decrease the amount of the time available for analyses; however, 
chemists at the DEA Chicago lab assist whenever the DEA chemists in 
Kansas City need them to do so.
4. What is the chain of command on site clean-up?
    When DEA is involved and the case is going to be prosecuted through 
the federal system, DEA sends the evidence primarily to the Kansas City 
Regional Crime Lab for analysis after which the exhibits are sent to 
the DEA Chicago laboratory for safekeeping, pending trial. If the case 
is to be prosecuted in the state system, the exhibits are processed 
through a local or state crime lab. In cases where the violator is a 
repeat offender, attempts are made to use the same chemist and same 
forensic laboratory for all the seizures.
5. How does DEA become involved?
    Law enforcement agencies have been encouraged to contact their 
local DEA office for any assistance they need in the processing and 
cleanup of clandestine labs. Clandestine lab protocols for each DEA 
office in the St. Louis Division have been widely distributed showing 
which DEA office to call for assistance.
6. What is the average cost, and who pays for clean-up?
    When DEA personnel respond to the lab site, DEA pays for the 
cleanup. When the state or local department processes the lab, COPS 
funding is used.
                             case synopses
    In a recent case in Des Moines, Iowa, a mother gave her eleven-
year-old daughter to drug dealers to pay an outstanding methamphetamine 
debt. The drug dealers took the girl with them to California, where 
they picked up a quantity of methamphetamine and returned to Iowa. The 
girl was used as a decoy during the trip, to avoid detection by law 
enforcement, and and for the drug dealers to portray themselves as a 
typical family on vacation.
    According to the eleven-year-old girl, she was given a new pair of 
platform shoes in California. She noticed new glue on the shoes and 
they were extremely heavy and hurt her feet. The shoes were later found 
to have been used to conceal drugs. The girl's mother and three other 
individuals have been arrested for conspiracy to distribute 
methamphetamine and using a minor to assist in drug trafficking. The 
girl and her five-year-old sister have been placed in foster care.
    In another case, methamphetamine abuse reared its ugly head and 
took hold of some of the more outwardly successful students--athletes 
and student leaders--in a typical, middle class high school in Iowa. 
The investigation began with a routine traffic stop and the seizure of 
a quantity of methamphetamine.
    Further investigation, identified the local methamphetamine source 
of supply as a man in his mid-thirties, who was an alumnae of the local 
high school, as well as a former valedictorian and star athlete. The 
man had a West Coast connection for methamphetamine.
    This person is a predator because he was feeding the high schoolers 
addiction by giving them free samples of methamphetamine, while also 
being a sexual predator, sodomizing young high school male students 
while under the influence of the drug. When shown pictures, which were 
later seized from the man, the young men did not recall the sexual 
encounters.
    Those high schoolers and the community suffered a devastating 
loss--the loss of their spirit, as a result of methamphetamine and the 
selfish motivation of one drug dealer. But remember--this situation did 
not occur someplace else--it happened in a place where your children 
and mine go to school.
[GRAPHIC] [TIFF OMITTED] T2681A.003

    Senator Ashcroft. Thank you. I want you to think about an 
item, too. You touched on something that has been raised 
earlier--you said the $2,500 cost for a cleanup----
    Mr. Corcoran. That's correct.
    Senator Ashcroft. And I think the Governor mentioned a $53 
cost for it. I would like for you to evaluate the difference 
and if we are talking about comparing apples and apples in that 
setting.
    I wanted to take this opportunity to recognize Bonnie Sue 
Cooper in the audience today. It's a pleasure to see 
Representative Cooper here. She was the president of the 
American Legislative Exchange Council, which is an organization 
of all the State legislators, at a time when I was asked to 
make an appearance before their group in New Orleans. It's a 
pleasure to see you again, Bonnie Sue.
    Ms. Cooper. Good to see you.
    Senator Ashcroft. Thank you for being here.
    Gary Howell serves as the director of the Kansas City 
Police Department's metropolitan crime lab, and last fall I had 
the opportunity to visit the facility while I think it was in 
its infancy.
    Mr. Howell. Exactly.
    Senator Ashcroft. It's a marvelous facility. HIDTA is 
helping to provide additional chemists and materials at the lab 
right now, and what a resource this lab is to the criminal law 
enforcement community. This morning Matt Lightfoot, a chemist, 
provided a demonstration of the manufacture of 
methamphetamines, and in drafting language to place a couple of 
new precursor meth chemicals as controlled substances in at 
least considering putting them in legislation, we have needed 
to confer with you and your colleagues. I want to thank you for 
coming and call upon you to make remarks at this time.

                    STATEMENT OF GARY HOWELL

    Mr. Howell. Thank you, Senator.
    The number of clandestine methamphetamine laboratories has 
exploded in the Midwest during the last several years. 
Traditionally the DEA has handled these investigations along 
with physical evidence of these types of offenses. However, due 
to the volume of the meth labs, the local authorities are being 
thrust to the forefront. In recognition of this issue resources 
are being diverted to deal with the new area of local law 
enforcement. Examination time spent on other crimes must now be 
directed towards meth labs.
    Challenges to the forensic laboratories are present at all 
stages of the meth lab investigation and prosecution. There are 
more technical challenges in a meth lab examination than in a 
traditional drug examination. Even a relatively simple meth lab 
will result in ten to 20 times the man-hours that a traditional 
drug case requires. Once the analysis is complete the chemist 
may also assist. A combination of these factors has created a 
draining of personnel and other resources.
    Meth labs have the capability of being able to severely 
injure or kill investigators at a crime scene. This highlights 
one of the worst problems confronting local law enforcement in 
dealing with these labs. Each meth lab presents a potentially 
deadly combination of extremely hazardous chemicals. Police 
officers traditionally have little, if any, experience or 
technical knowledge in the assessment and handling of hazardous 
chemicals. This is the same as for the untrained meth lab cooks 
that are making this stuff. This lack of technical expertise 
poses a direct threat to officer safety, although HIDTA 
chemists' efforts have been highly effective in improving site 
and safety factors, many improvements need to be made.
    The infrastructure provided by local forensic laboratories 
has long been neglected. The clandestine methamphetamine 
laboratory problem has demonstrated these systems have neared 
their breaking point. The challenge presented by this problem 
rivals the crack cocaine epidemic in the 1980's. While 
tremendous efforts are being shifted to the meth lab problem, 
there has been no reduction in work load created by other 
criminal activity. This burden continues to slow the criminal 
justice system at the local level. Investigative units become 
overwhelmed with calls for assistance. Crime labs are beginning 
to get backlogged with evidence. The court system will further 
bog down as a result.
    Local forensic labs, particularly in large metropolitan 
areas, compete directly with other policing efforts for 
funding. The crime laboratories in major metropolitan areas of 
the country are critically underfunded with respect to 
facilities, personnel, equipment, and training. Accreditation, 
certification, and standardization, while necessary to assure 
quality results, are bringing more of a drain on resources. All 
this means that, with current levels of funding, fewer crimes 
can be investigated in the crime labs.
    However, there is more reliance on quality than ever 
before. The metropolitan crime labs have the burden of a great 
majority of serious crimes in the country. From the 1997 UCR 
report for the State of Missouri, the metropolitan crime labs 
handled 84.1 percent of all violent crimes in the State. They 
were responsible for 80.7 percent of the homicides, 79.7 
percent of the rapes, and 94.4 percent of the robberies. When 
we are drawing time out to work these very tedious clan meth 
labs, we are drawing off of working homicides, rapes, and 
robberies, is what I'm saying.
    The Byrne grants, administered by the DOJ, have been 
instrumental in equipping some of the crime labs in the 
country. Not all States fund crime lab projects with this 
grant. These labs have been limited to a 4-year project 
duration for the rules have been changed. The HIDTA philosophy 
of integrating Federal, State, and local law enforcement 
agencies have been very successful. HIDTA provides for 
emergency needs and policy changes that are effective in 
fighting local crime.
    Metropolitan crime labs are in desperate need of upgrading 
their facilities, equipment, and personnel to combat the 
increasing meth lab problem. However, they must compete for 
municipal funds with other police needs. As municipal budgets 
are tight, there is little hope that laboratories can be 
upgraded with local monies alone. Full funding of the Senate 
bill 2022, last year's Senate bill 2022, will be a step forward 
in helping metropolitan and all the Nations' crime labs.
    Appreciate the interest.
    Senator Ashcroft. Well, thank you very much. Just as a 
note, the Byrne grants, which were deleted from the President's 
budget, were restored in the Senate budget, which we passed 
last week, and I think there is very serious awareness on the 
part of the House and Senate that these are valuable funds, the 
maintenance of the right level of public safety, and I think 
there is a good likelihood that they will be restored in the 
budget as finally--but I think you are the third or fourth 
person today that just tucked in a little reference to the 
Byrne grants, and you don't want to get burned, not having the 
grants, and I don't want that to happen, either. I have taken a 
pretty aggressive stance in respect to that.
    I have been hearing from several of you now, and you might 
want to think about the idea that the nature of the meth with 
the clandestine lab, sort of a home-cooking component of it, 
creates such a big demand that it rivals or consumes resources 
that we might need in other settings, and this figure, 10 to 20 
times, as much analysis required for a meth case as it is for--
--
    Mr. Howell. A drug case.
    Senator Ashcroft. Drug cases, it's interesting. I wish I 
knew what to do about it. But I'm interested in this tension 
between the two things. It may just be the fact that this is 
stuff that people can make in their kitchen.
    Teresa, I'm very pleased that you would come. Teresa Loar 
is a councilwoman from Kansas City, MO's, First District. Is 
today an election day?
    Ms. Loar. Yes, sir, it is.
    Senator Ashcroft. Well, if you have time to come here on 
election day, you are to be commended in every respect. That is 
putting government over politics in the highest tradition. So I 
thank you very much.
    She has been a leading voice, an advocate for cooperative 
approaches to cleaning up meth sites in the Kansas City metro 
area, and I thank you very much for coming, Ms. Loar, and 
welcome your testimony.

                    STATEMENT OF TERESA LOAR

    Ms. Loar. Well, thank you, Senator, and this is that 
important to me. However, I am unopposed, besides that.
    About 1\1/2\ years ago, I started receiving a number of 
calls from my constituents, and the majority of my district is 
in a suburban area, so meth is--rules in my district, but I 
received a number of calls concerning a house that had been 
abandoned and had been invaded by the police and the drug force 
to come in and empty it out, and we had a house left standing. 
There had been, I believe, three previous lab--drug seizures in 
the house. Now it was empty. There was yellow tape around it 
from the police department. And it was kind of in a semirural 
setting, but it did have neighbors around it that were 
concerned about what to do with the house. It had been sitting 
for months. So I started making the phone calls to the police 
department, and my--just running my trap, to see what we should 
do with this house. And no one had an answer.
    The police department, in fact Barry Mayer and a number of 
officers involved with this, said ``We really don't have any 
protocol or procedure as to what to do with a house once we 
have seized the drugs.'' And Mr. Corcoran talked about the feds 
will provide for the disposal of the chemicals, but then the 
feds leave. So I'm left with what to do with the house or the 
motel room or the apartment building or whatever that is left 
in my district, that we don't know what the contamination level 
is.
    So we put together a taskforce to try to figure out just 
what to do, how to set up the protocol, and who calls who, and 
what to do once those agencies have been called. And we got 
overwhelming response from the area. Everybody from the Federal 
level at EPA and the Department of Natural Resources from the 
State level, we had health departments, we had environmental 
organizations, we had law enforcement agencies of every kind, 
sit down to try and figure out what to do. And the one hurdle 
we could not overcome was, we have no standards with which we 
could measure contamination levels to where we could hold up a 
case in court, if we tried to enforce some sort of cleanup 
measures by the owner of the apartment or the owner of the 
house or the owner of the motel.
    So that's where we got stopped, right at that point, and 
haven't been able to overcome that point as to what the 
standard levels are of the various chemicals that are in the 
house, that are in the ground, that are in the water, that are 
in the walls or the curtains or the furniture. And then, again, 
that depends on the level of meth that was being cooked in the 
house. The people that had called me about my first abandoned 
house up there on this said, ``Well, they were dumping 
chemicals, they were dumping the stuff in the culvert 
outside,'' so we didn't know the kids were playing--it was 
right next to ball fields where a lot of little leagues played. 
So my concern was, is the water washing these chemicals down? 
Do the kids get in it? What happens? We didn't know. So I 
relied on our health department and our environmental 
department for the city to try to give me some answers, and 
they didn't know.
    So we are just looking for help here, and I think the first 
thing we are going to have to do is find those standards, and I 
think we checked with a number of other States, looking around 
for the same answers. We can't go to court, we can't prosecute 
a case and win, if we don't have some standards to go by. So 
that's kind of where we are at.
    My taskforce is still together. I have a list of folks that 
are ready and waiting for their call as soon as we have got 
something to go forward with. I'm on point to do a city 
ordinance, to require a motel owner or an apartment building 
owner or a house owner, if they are busted for meth, they are 
responsible for the cleanup. Otherwise, the local 
municipalities can't afford this. The cleanups are terribly 
expensive. The Federal Government can't afford it, nor should 
we be paying for it. I think the people who are responsible for 
these activities are going to have to pay for whatever 
contamination they might, you know, distribute on the rest of 
the world here.
    I think if we had the hotel and motel and apartment owners 
maybe being more conscious of what's going on, and know it's 
going to financially hit their pocketbook, they may be a little 
more restrictive about who they rent to or lease to. So that 
might be--we thought that might get some attention on their 
part. Homeowners--you know, we have to hit the real estate 
market and the bankers loaning the money and the mortgage 
companies, that say, ``You are going to have a contaminated 
area, it's going to be hard for resale, you better know what is 
going on.'' Because, eventually, it's going to hit a financial 
level to where people are going to pay attention to this. It's 
dreadful what it does to people using it, cooking it, the 
children who are involved. But we are not going to get the 
attention until it starts hitting somebody financially, in my 
opinion. That's the way things work in this world.
    So I appreciate you allowing me to come talk today, and 
that's sort of our dilemma. We are looking to you to help us 
set some standards so we can enforce what we need to do here.
    Senator Ashcroft. Thank you very much. That's a side of the 
issue that we haven't had other testimony on. I appreciate it 
very much. Thank you.
    The director of the Kansas City, MO, Office of 
Environmental Management. You may want to lean over and see if 
they can confer about standards. Mr. John Stufflebean. He helps 
with cleanup and disposal of meth chemicals from contaminated 
site or sites, as I guess--so we would be very pleased to have 
your contribution this morning.

                 STATEMENT OF JOHN STUFFLEBEAN

    Mr. Stufflebean. Thank you, sir. I appreciate this 
opportunity to address you this morning.
    The responsibilities of the Environmental Management 
Department include addressing abandoned chemicals and 
contaminated sites in our community. The city removes household 
chemicals from approximately 200 abandoned buildings each year, 
and the city removed abandoned chemicals from roadsides, vacant 
lots, public lands, about 25 times each year. The city 
remediates approximately 25 sites each year where chemicals 
have been spilled and illegally dumped.
    In addressing these sites, Environmental Management follows 
procedures based on State and Federal regulations and 
guidelines. The State and Federal agencies have identified 
lists of hazardous chemicals and the concentrations at which 
they pose a hazard and have established protocols for sampling 
hazardous materials and for the laboratories that analyze those 
samples.
    In addressing buildings previously used for illegal 
manufacture of drugs, there are no regulations or guidelines 
that exist. Certain chemicals common to meth manufacturing are 
known to pose hazards but do not appear on existing lists of 
hazardous chemicals. There are no published reports identifying 
the quantity or concentration at which many of these chemicals 
pose a hazard, and there are not established protocols for 
sampling and analyzing many of these chemicals. Federal and 
State agencies haven't provided guidance for parties interested 
in addressing these sites.
    Presently there is very little being done to assess or 
address contamination left behind at former meth labs. The 
director of the Kansas City Health Department has the authority 
to address public health risks but cannot exercise that 
authority without standards. The Kansas City Health Department 
has never issued an order based on residual contamination from 
a former illegal drug lab. Presently it's up to the owner of 
the building whether to clean up and how clean it has to be 
after it has been used for illegal drug manufacture.
    Now, there are several reasons to justify action by the 
Federal Government in this area. Many of the chemicals used in 
illegal drug labs are known to be toxic and to pose chemical 
hazards. Industrial activity such as those performed in drug 
manufacturing are known to leave residual contamination at 
commercial and industrial sites. Residual contamination would 
be anticipated at illegal drug labs. To protect residents, 
exposure limits in residential properties should probably be 
more stringent than those established for commercial and 
industrial sites. And, finally, the Government could face 
potential liability for taking an active role in a drug lab but 
leaving hazards unaddressed.
    On the other hand, we have been able to find little 
evidence that residents of former drug lab properties are--have 
been adversely affected. We know of no reported cases of acute 
symptoms among people who have been exposed to residual 
contamination in former drug labs. Sampling and analyzing to 
detect contamination we know would be very expensive. 
Decontamination of the property would be very expensive. And if 
ordered to sample, analyze, and decontaminate, many owners 
would simply abandon the property, in which case the burden 
would fall, of course, on the Government.
    The final point on this is that virtually everyone buys and 
stores in their homes a wide range of consumer products 
containing hazardous chemicals. These products result in--
result in thousands of actual poisonings each year. Drug lab 
chemicals could be viewed and addressed as part of a larger 
problem of hazardous household products.
    In light of these considerations, I would like to offer two 
recommendations. One is that the Federal Government should 
conduct research to determine whether people are being harmed 
by residual contamination at illegal drug lab sites, at what 
concentrations these harms occur, and how to best mitigate 
these harms. If data then shows that significant actions are 
needed, the Federal Government should establish appropriate 
guidelines which the concerned parties could follow.
    Second, acute problems are not being encountered in part 
because law enforcement personnel are removing all 
containerized chemicals from the scene. These chemicals are 
usually accepted by the DEA for disposal at Federal expense. 
This service provided by the DEA is essential to the 
municipalities. If police seize drug precursor chemicals but no 
complete lab is found the DEA will not accept it. We feel the 
DEA should consider expanding its service to accept drug 
precursor chemicals seized from activity.
    Thank you very much for this opportunity to provide a 
perspective on these issues.
    Senator Ashcroft. That technical stuff takes longer. So 
your point is precursor chemicals, you would like for the DEA 
to take those, even if you have caught the guy before they had 
actually done the lab----
    Mr. Stufflebean. Yes, sir.
    Senator Ashcroft. About a year ago I had the opportunity of 
meeting and visiting with and learning about a problem in 
Johnson County with drugs, and I had a chance to meet with the 
sheriff of Johnson County, Charles Heiss. In many respects its 
problem has been exacerbated by the height of success. The 
increased pressure that comes from good law enforcement or 
stronger law enforcement, more intense law enforcement in some 
areas tends to displace--I think you used--Mr. Corcoran, you 
used the word, ``displacement.'' Someone did. And I wanted the 
sheriff, who had been so kind as to help me try and develop a 
better understanding of this, to state some of those things for 
the record that you talked to me about, and there may be other 
things that you want to include. But I'm very pleased, Sheriff, 
to have you be a part of the panel today, and if you would 
proceed with your testimony I would appreciate it.

                   STATEMENT OF CHARLES HEISS

    Mr. Heiss. Thank you, Senator. It's an honor to be here and 
speak with the panel.
    As you know, in Johnson County--we have a huge 
methamphetamine problem in Johnson County. I am a counterpart 
of Gary Starke, who borders me just to the east. I took office 
January 1, 1997.
    In the 3 years prior to that, the previous administration 
seized six methamphetamine labs in 3 years. In the first 24 
months of my administration, we have seized nearly 100 
methamphetamine labs in Johnson County.
    To complicate this even more, as I sat here and I listened 
to the folks here in the Kansas City metropolitan area, 
certainly HIDTA has been very successful in Kansas City and 
Independence and in some of the surrounding areas, and we have 
benefited from their success with the influx of methamphetamine 
producers moving to Johnson County.
    To complicate things in our area would be the introduction 
of anhydrous ammonia, which has not been talked about at all 
today. The vast, vast majority of the labs that we are seizing 
in Johnson County now are anhydrous labs. We are no longer 
strictly raiding homes or outbuildings where illegal labs are 
set up. We are now finding labs and producers traveling the 
roads, the back roads of Johnson County, producing their 
methamphetamine in the back seat of their cars or in the bed of 
their pickup trucks, which poses an extreme danger to a regular 
patrol deputy whose main function is not narcotics detection or 
eradication of methamphetamine labs.
    For instance, I know a neighboring county or a fellow 
sheriff had a deputy who was overcome by anhydrous ammonia on a 
traffic stop as he opened up an Igloo cooler of a known meth 
producer that was filled with anhydrous ammonia. He was 
overcome and was incapacitated on the side of the road. A very 
dangerous situation for the deputy to find himself in.
    So, with the advent of anhydrous ammonia in Johnson County, 
we face a new problem, and of course that is a respiratory 
irritant.
    We have talked a lot today about multijurisdictional 
taskforces, of which I belong, and of which I sit on the board 
of the West Central Drug Taskforce. We have talked about HIDTA. 
We have talked about the highway patrol. We have talked about 
local enforcement.
    The problem that I see, Senator, is that we need to level 
the playing field. I believe that the playing field at the 
current time is not level. In fact, the local sheriff or the 
local police chief, who is often cast with locating these labs, 
eradicating these labs, arresting the suspects, and pushing the 
case to the court system, is not able to benefit from any 
funding, direct funding, through the grants. It's my officers 
that are going through the door of these labs, my officers that 
are rolling up in these cars, we don't have the proper 
protective equipment that we need, SCBA, self-contained 
breathing apparatuses, Tyvek suits, protective gloves, and 
things like that.
    So in my estimation, if we could level the playing field 
and make some of those funds available at a direct local level 
to the local sheriff, to the local police chief, who is 
responsible and held accountable to the people of this 
jurisdiction--those people elected me to take care of their 
methamphetamine problem, and it's my phone that rings when they 
see that there is a problem. So I think we need to level that 
playing field.
    The funding needs to be made available. We are often held--
it seems the funding stops at the State level. A lot of funding 
goes into the Missouri State Highway Patrol, which is a fine 
organization, but an organization in my estimation that has 
passed a zero tolerance policy for their local troopers being 
able to enter into a meth lab.
    When I first took office we were able to take our local 
troopers--and we have got the finest group of troopers in 
Johnson County as anywhere in the State, some of the most 
motivated law enforcement officers in the State. We were able 
to take those fellows with us. We can no longer do that. They 
are not allowed. If we call them and say, ``We have got an 
operation that we need assistance with,'' the first question 
out of the zone commander's mouth is, ``Is it a meth lab?'' If 
it's a meth lab or methamphetamine related, they can't 
participate. They can't take an arrested subject out of a 
methamphetamine lab and place them in a State highway patrol 
car. They are not allowed to have any contact with that 
environment at all, is the understanding that I have in talking 
with my local troopers and my local zone commander. So they are 
rendered useless to us in a methamphetamine environment.
    The Governor alluded to the cost of cleanup. He shot a 
figure of $53. I would kind of take issue with that and 
challenge somebody to be able to clean up a lab for $53. I know 
it cannot be done. When you talk about cleaning up a lab, you 
are talking about thousands of dollars, depending on the size 
of the labs that we have had, and some in Johnson County, we 
have had labs with as much as 7 pounds of finished product, we 
have had labs with no finished product but a mass amount of 
chemicals.
    Senator Ashcroft. You had 7 pounds of methamphetamine?
    Mr. Heiss. Seven pounds of methamphetamine.
    Senator Ashcroft. Pardon me. That is a lot of 
methamphetamine.
    Mr. Heiss. Yes, that is a lot of methamphetamine. Another 
lab we did, we had nearly 4 pounds of Ephedrine, which is the 
base ingredient for methamphetamine. So we have a huge problem. 
Our taskforce covers a nine-county area, and it's under the 
direction of the highway patrol. I assigned an officer to that 
taskforce full time. That is all he does, is be assigned to the 
taskforce. However, he's spread out over a nine-county area.
    Then it costs me an additional $8,000 a year to participate 
in the taskforce. The sacrifice of the officer and the 
sacrifice of the additional funds puts a strain on not only our 
personnel resources but also our limited budget. I have a very 
limited budget. We are a rural county. It takes a lot to go up 
the hill and talk with three county commissioners and ask for 
an additional $8,000 of county revenue. So the 
multijurisdictional drug taskforces, although they have been 
highly successful, a well-organized effort, I'm not sure that 
we are spending our money and getting the best bang for the 
buck that we are spending.
    Again, HIDTA has been very successful in the metropolitan 
area, but you get more than 30 miles outside the metropolitan 
area, the problem of methamphetamine is not as--considered as 
serious as it would be in the Kansas City, St. Louis, 
Springfield metropolitan areas.
    So those are some of my concerns, Senator, that I have, and 
the reason that I came to speak with you today, to bring some 
of those things to light; and I appreciate the opportunity to 
visit with you.
    [The presentation of the Missouri State Highway Patrol 
follows:]
[GRAPHIC] [TIFF OMITTED] T2681A.004

[GRAPHIC] [TIFF OMITTED] T2681A.005

[GRAPHIC] [TIFF OMITTED] T2681A.006

[GRAPHIC] [TIFF OMITTED] T2681A.007

[GRAPHIC] [TIFF OMITTED] T2681A.008

[GRAPHIC] [TIFF OMITTED] T2681A.009

[GRAPHIC] [TIFF OMITTED] T2681A.010

[GRAPHIC] [TIFF OMITTED] T2681A.011

[GRAPHIC] [TIFF OMITTED] T2681A.012

[GRAPHIC] [TIFF OMITTED] T2681A.013

[GRAPHIC] [TIFF OMITTED] T2681A.014

    Senator Ashcroft. Well, I'm very pleased to have your 
testimony along with all of the other individuals that have 
testified. I have learned something from every single person 
who has testified. You know, I'm delighted that we were able to 
get a HIDTA designation for the State, and I'm delighted that 
we have leadership like Dave Barton's in the HIDTA. But, you 
know, putting pressure on something over here sometimes makes 
it pop up there. We are going to have to work to fine-tune our 
efforts to do what we can to make sure that we are curtailing 
and displacing. I don't think we will ever totally curtail 
without some displacement, but we are going to have to do more 
than just displace. We have to do more to move these folks.
    OK; if I can remember where we started out, I would just 
like to take a look at--I think, Barry, as the commander of the 
taskforce--you said that those who are so addicted when they 
are released are going to be cooking again right away.
    Mr. Mayer. Absolutely. I can give you example after 
example.
    Senator Ashcroft. Out of ten people arrested and charged on 
meth, how many of them go back to cooking?
    Mr. Mayer. All of them.
    Senator Ashcroft. All of them.
    Mr. Mayer. They all go back to being involved or affiliated 
with the group that they came from somehow. I have yet to see 
an exception to that.
    Senator Ashcroft. Your point is, then, that we really need 
to focus on these folks.
    Mr. Mayer. Absolutely. Judges can be talked to, and 
citizens groups--I have heard some great suggestions recently. 
Another--I see Phil had a deal up north of the river in a 
community up there. The Clay County prosecutor up there 
suggested that community groups come to sentencings and be 
present and let the judge know that the community is concerned 
about the sentencing these crooks are getting. The judges are 
also being swayed to release or lower bonds. They will set an 
initial bond and be very high, and then an attorney will become 
involved, and suddenly the bond is reduced, and now they have 
cash to make it. Instead of a $500,000 bond, it's reduced to 
$50,000, and they have 5,000 to put up, and the guy is back 
out, and we've got to go find them again. Time after time we 
do. We find them involved again in some type of criminal 
enterprise, stealing autos, counterfeiting, making bad checks, 
shoplifting. Anything they can do to keep their process going, 
where they can get to meth.
    Senator Ashcroft. Mr. Corcoran, I asked you to think about 
this $2,500 versus $53 deal. Obviously if the State can do it 
for 53 we ought to transfer that function totally to the State. 
But is this a different thing? Are there different guidelines 
or safeguards being adhered to or----
    Mr. Corcoran. I can't comment because I don't know how that 
$53 is workable. I just know that, as Gary Howell said, DEA 
once did it, several years ago, respond to every lab and handle 
the cleanup. With the problem the way it is now, with the COPS 
funding, we have made it available to fund the cleanups for 
every lab, with strict OSHA guidelines, and those guidelines 
are meant to protect the officers and the environment in 
handling these chemicals.
    We early on, when it came----
    Senator Ashcroft. Pardon me. Let me interrupt you. I think 
you said before that every law enforcement agency is eligible 
to apply for that?
    Mr. Corcoran. For the cleanup, correct. We have a protocol 
sent out to every department----
    Senator Ashcroft. So no matter how small, like Sheriff 
Starke's this morning or Sheriff Heiss's operation, they would 
be eligible, whether or not they are in HIDTA?
    Mr. Corcoran. Correct, correct.
    Senator Ashcroft. OK, good.
    Mr. Corcoran. The cleanup situation. Early on we met with 
DNR in the State of Missouri and EPA, because, again, we are 
law enforcement, and our job stops at a certain point, and we 
try to make that bridge and look for help and look for ways we 
could all work together. There have been comments made about 
our funding for clan lab cleanups. It's been well researched. 
Again, we have certain mandates within OSHA that we follow. 
It's a national contract. And we try to provide--provide it for 
everybody. So it--unless there is a better way, we will 
continue.
    Senator Ashcroft. Have any of you been associated with the 
law enforcement agency that has had someone with some serious 
permanent--or long-lasting disability as a result of the 
exposure to the toxic substance?
    Mr. Corcoran. The DEA has. Again, early on--we have been 
doing clandestine laboratories for decades. You know, mostly 
out in California, when they were few and far between. And 
before you had these guidelines, and people would go into these 
things and inhale the chemicals, and--I know a person in 
Chicago who got severe liver damage from a lab he went into in 
the 1970's.
    Mr. Mayer. I have an officer that receives respiratory 
therapy every week.
    Mr. Heiss. I think the response, Senator, at the local 
level, is to try and develop your intelligence as such so that, 
when you raid this lab, you are hitting it at such a stage that 
you are not going to----
    Senator Ashcroft. Minimize your risk?
    Mr. Heiss. You are going to minimize your risk. You are not 
going to be there while the cook--if you are doing anhydrous or 
Ephedrine reduction methods, you aren't going to be there while 
that flame is being applied to the mixture, so you minimize 
your risk of explosion and things like that. Certainly we do 
that with anhydrous.
    Senator Ashcroft. Do you film any of your seizures? I'm 
getting to use the right vocabulary here. Do you film those?
    Mr. Heiss. We have filmed several.
    Senator Ashcroft. All right. Because I'm kind of getting 
the idea--what I'm getting is that the out-State operations 
aren't as well equipped, so maybe you have to have a different 
timing, so that you minimize your risks.
    Mr. Heiss. Right.
    Senator Ashcroft. I mean, I wonder if one of your 
operations would differ substantially from watching a film with 
one of yours, Barry, as it struck me this morning when they 
brought out an array of gear that had sensing stuff, that 
senses the gases----
    Mr. Heiss. Air monitoring equipment.
    Senator Ashcroft [continuing]. Monitoring for gas and 
everything that is in the environment. Do you have that kind of 
equipment?
    Mr. Heiss. No, we don't. That is what I was talking about, 
what I tried to allude to when I talked about leveling the 
playing field, because we are going in at such an disadvantage. 
We don't have that equipment available directly through our 
sheriff's department. We don't have the SCBA's that the officer 
needs to put on for protective equipment. We don't have that 
equipment available to us.
    Often when you develop the intelligence of the 
methamphetamine lab--say, for instance, a deputy stops, makes a 
traffic stop, turns that traffic stop into a methamphetamine-
related arrest. Our narcotics officers are alerted. They come 
in and they talk to the suspect. There is no moral--they have 
no problem ratting out whoever gave them their dope. There is 
no loyalty there at all. So we get them to rat the cook out. 
And often what we find is that the cook is going to take place 
within the next 2 hours. We find ourselves in that 2-hour 
window. So we have to move very rapidly, get contact with the 
prosecutors, develop intelligence, write the search warrant, 
have the search warrants----
    Senator Ashcroft. And beat them to the cook.
    Mr. Heiss. And beat them to the cook, so we are not going 
into an environment that is going to be volatile. And it is 
so--often what we have is, although some of the taskforces have 
this equipment available, it is virtually impossible to get 
that equipment to the scene of the raid in time to raid the lab 
and be productive in your efforts.
    Senator Ashcroft. Well, it's pretty clear that we have not 
solved all of your problems here this morning. As a matter of 
fact, we haven't solved any. But I have heard about some that 
we need to focus some attention on. Let me again say to each of 
you how much I appreciate your testimony. I don't know whether 
a city could enact standards but you would probably like to 
base them on some good science somewhere.
    Ms. Loar. Our attorney's office doesn't believe we can, at 
least that would hold up in court. They are a little concerned 
about--and that comes from your----
    Mr. Stufflebean. Yes.
    Senator Ashcroft. But these are items which are helpful for 
me to learn about. I want to thank everyone who has come, those 
of you who have come to observe as well as those who came to be 
active participants. I want to thank the staff from Senator 
Thurmond's office, my own staff, the staff of the Judiciary 
Committee and appreciate each of you having an interest in 
this. One of you, I think on this panel, indicated that this is 
worse than any other drug you have ever encountered. I think 
people have thought, since it's made out of cold tablets and a 
few other things, a lot of folks think it's something that can 
be disregarded. Until we elevated the penalties last year to 
make them equivalent with cocaine--it was sort of treated that 
way in the Federal law. I think the last thing we can come to a 
conclusion on, is that this is something that can be 
disregarded or minimized. It's very, very serious. So I thank 
you all for being here, and I would indicate to you that we 
will keep this record open for another couple days. If, as you 
are sort of driving home, saying, ``Boy, I wish I would have 
said that, that guy needs to know this or the Congress ought to 
be aware of that,'' get it to us. Will Leathem here in the 
Kansas City office would be very pleased to be the conduit for 
getting that material to us, because we would like to include 
additional items of wisdom in the record of this hearing.
    With that note of thanks and appreciation to all that have 
appeared, especially to the Governor for having come by, to 
make himself a part of this hearing, we will call the hearing 
adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]



                            <greek-d>

</pre></body></html>
